1a

Appendix A
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION
____________
No. 1:21-CV-616-RP
____________
WHOLE WOMAN’S HEALTH, on behalf of itself, its
staff, physicians, nurses, and patients; ALAMO CITY
SURGERY CENTER, P.L.L.C., on behalf of itself, its
staff, physicians, nurses, and patients, doing
business as Alamo Women’s Reproductive Services;
BROOKSIDE WOMEN’S MEDICAL CENTER, P.A.,
on behalf of itself, its staff, physicians, nurses, and
patients, doing business as Brookside Women’s
Health Center and Austin Women's Health Center;
HOUSTON WOMEN’S CLINIC, on behalf of itself,
its staff, physicians, nurses, and patients;
HOUSTON WOMEN’S REPRODUCTIVE
SERVICES, on behalf of itself, its staff, physicians,
nurses, and patients; PLANNED PARENTHOOD
CENTER FOR CHOICE, on behalf of itself, its staff,
physicians, nurses, and patients; PLANNED
PARENTHOOD OF GREATER TEXAS SURGICAL
HEALTH SERVICES, on behalf of itself, its staff,
physicians, nurses, and patients; PLANNED
PARENTHOOD SOUTH TEXAS SURGICAL
CENTER, on behalf of itself, its staff, physicians,
nurses, and patients; SOUTHWESTERN WOMEN’S
SURGERY CENTER, on behalf of itself, its staff,
physicians, nurses, and patients; WHOLE

2a

WOMEN’S HEALTH ALLIANCE, on behalf of itself,
its staff, physicians, nurses, and patients; MEDICAL
DOCTOR ALLISON GILBERT, on behalf of herself
and her patients; MEDICAL DOCTOR BHAVIK
KUMAR, on behalf of himself and his patients; THE
AFIYA CENTER, on behalf of itself and its staff;
FRONTERA FUND, on behalf of itself and its staff;
FUND TEXAS CHOICE, on behalf of itself and its
staff; JANE’S DUE PROCESS, on behalf of itself and
its staff; LILITH FUND, Incorporated, on behalf of
itself and its staff; NORTH TEXAS EQUAL ACCESS
FUND, on behalf of itself and its staff; REVEREND
ERIKA FORBES; REVEREND DANIEL KANTER;
MARVA SADLER,

v.

PLAINTIFFS,

AUSTIN REEVE JACKSON, in his official capacity
as Judge of the 114th District Court, and on behalf of
a class of all Texas judges similarly situated; PENNY
CLARKSTON, in her official capacity as Clerk for the
District Court of Smith County, and on behalf of a
class of all Texas court clerks similarly situated;
MARK LEE DICKSON; STEPHEN BRINT
CARLTON, in his official capacity as Executive
Director of the Texas Medical Board; KATHERINE
A. THOMAS, in her official capacity as Executive
Director of the Texas Board of Nursing; CECILE
ERWIN YOUNG, in her official capacity as Executive
Commissioner of the Texas Health and Human
Services Commission; ALLISON VORDENBAUMEN
BENZ, in her official capacity as Executive Director

3a

of the Texas Board of Pharmacy; and KEN PAXTON,
in his official capacity as Attorney General of Texas,
DEFENDANTS.
____________
Filed: August 25, 2021
____________
ORDER DENYING DEFENDANTS’
MOTION TO DISMISS
____________
Before this Court are Defendants Allison
Vordenbaumen Benz, Stephen Brint Carlton, Ken
Paxton, Katherine A. Thomas, Cecile Erwin Young,
Austin Reeve Jackson, Penny Clarkston, and Mark
Lee Dickson’s (together, “Defendants”) motions to
dismiss, (Dkts. 48, 49, 50, 51), Plaintiffs’ responses,
(Dkts. 56, 57, 62), and Defendants’ replies. (Dkts. 64,
66, 67). related briefing. Having considered the
parties’ briefing, the record, and the relevant law, the
Court will deny the motions.
I. BACKGROUND
A. Procedural Background
Plaintiffs1 filed the instant action on July 13,
2021, requesting declaratory and injunctive relief to
1 Plaintiffs in this action include Whole Woman’s Health,
Alamo City Surgery Center PLLC d/b/a Alamo Women’s
Reproductive Services (“Alamo”), Brookside Women’s Medical
Center PA d/b/a Brookside Women’s Health Center and Austin
Women’s Health Center (“Austin Women’s”), Houston Women’s
Clinic, Houston Women’s Reproductive Services (“HWRS”),
Planned Parenthood of Greater Texas Surgical Health Services
(“PPGT Surgical Health Services”), Planned Parenthood South

4a

prevent Senate Bill 8 (“S.B. 8”), an abortion restriction
bill signed into law by Governor Greg Abbott
(“Abbott”) (collectively (“Texas” or the “State”), from
taking effect on September 1, 2021. (Compl., Dkt. 1, at
2); S. B. 8, 87th Leg., Reg. Sess. (Tex. 2021). That same
day, Plaintiffs filed a motion for summary judgment
on all their claims. (Mot. Summ. J., Dkt. 19). On July
16, 2021, Plaintiffs filed a motion to certify two
defendant classes of non-federal judges and clerks in
Texas with jurisdiction to enforce S.B. 8. (Mot. Certify
Class, Dkt. 32). Defendants then moved to stay
consideration of Plaintiffs’ pending motion for
summary judgment and motion to certify class until
the Court’s resolution of jurisdictional challenges
Defendants planned to bring in motions to dismiss,
(Dkt. 39), which the Court denied in setting a briefing
schedule for the pending motions after holding a
conference with the parties. (Dkts. 40, 47).
After being served, Defendants filed the instant
motions to dismiss Plaintiffs’ claims under the terms
of the scheduling order issued by the Court. (Dkts. 48,
49, 50, 51). On August 7, 2021, Defendants Clarkston
and Dickson filed a petition for writ of mandamus and
emergency motion to stay with the Fifth Circuit,
Texas Surgical Center (“PPST Surgical Center”), Planned
Parenthood Center for Choice (“PP Houston”), Southwestern
Women’s Surgery Center (“Southwestern”), Whole Woman’s
Health Alliance, Allison Gilbert, M.D., Bhavik Kumar, M.D.,
(together, “the Provider Plaintiffs”), The Afiya Center, Frontera
Fund, Fund Texas Choice, Jane’s Due Process, Lilith Fund for
Reproductive Equity (“Lilith Fund”), North Texas Equal Access
Fund (“NTEA Fund”), Marva Sadler, Reverend Daniel Kanter,
and Reverend Erika Forbes (“the Advocate Plaintiffs,” and
together with the “the Provider Plaintiffs,” “Plaintiffs”). (Dkt. 1,
at 9–14).

5a

arguing that they should not have to respond to the
merits of Plaintiffs’ claims until the jurisdictional
motions to dismiss were resolved by this Court. See In
re Clarkston, No. 21-50708 (5th Cir. filed Aug. 7,
2021). After entering a temporary administrative stay
of this action, the Fifth Circuit denied Defendants
Clarkston and Dickson’s petition for mandamus on
August 13, 2021. See id. In the interim, Plaintiffs filed
a motion for a preliminary injunction, which is set for
a hearing on August 30, 2021. (Mot. Prelim. Inj., Dkt.
53; Order, Dkt. 61). The Court then issued an
amended briefing schedule to clarify that
jurisdictional challenges to Plaintiffs’ suit would be
reached before the merits of the claims. (Order, Dkt.
60).
B. Senate Bill 8
S.B. 8 purports to ban all abortions performed on
any pregnant person2 where cardiac activity has been
detected in the embryo, with no exceptions for
pregnancies that result from rape, sexual abuse,
incest, or a fetal defect incompatible with life after
birth. S.B. 8 § 3 (to be codified at Tex. Health & Safety
Code § 171.204(a)). As explained below, S.B. 8 is
enforced through a dual private and public
enforcement scheme, whereby private citizens are
empowered to bring civil lawsuits in state courts
against anyone who performs, aids and abets, or
intends to participate in a prohibited abortion, see id.
2 The Court notes that people other than those who identify
as “women” may also become pregnant and seek abortion
services. See Accord Reprod. Health Servs. v. Strange, 2021 WL
2678574, at *1 n.2 (11th Cir. June 30, 2021) (“Although this
opinion uses gendered terms, we recognize that not all persons
who may become pregnant identify as female.”).

6a

§§ 171.208, 210, and the State may take punitive
action against the Provider Plaintiffs through existing
laws and regulations triggered by a violation of S.B.
8—such as professionally disciplining a physician who
performs an abortion banned under S. B. 8. See, e.g.,
Tex. Occ. Code §§ 164.053(a)(1)), 165.101; 243.011–
.015, 245.012–.017; 301.10, 553.003, 565.001(a),
565.002.
1. The Six-Week Ban on Abortions
The cornerstone of S.B. 8 is its requirement that
physicians performing abortions in Texas determine
whether a “detectable fetal heartbeat”3 is present
before performing an abortion. S.B. 8 § 3 (to be codified
at Tex. Health & Safety Code §§ 171.203(b),
171.204(a)). S.B. 8 further bans any abortions
performed once a “fetal heartbeat” has been detected
or if the physician fails to perform a test for cardiac
activity within an embryo (“the six-week ban”4). Id.
The six-week ban contains no exception for
3 S.B. 8 defines “fetal heartbeat” as “cardiac activity or the
steady and repetitive rhythmic contraction of the fetal heart
within the gestational sac.” S.B. 8 § 171.201(1). Because an
ultrasound can typically detect cardiac activity beginning at
approximately six weeks of pregnancy, as measured from the
first day of a patient’s last menstrual period (“LMP”), the Court
notes that “fetal heartbeat” is a medically inaccurate term since
what the law intends to refer to is “cardiac activity detected in an
embryo.”
4 The Court will refer to S.B. 8’s ban as a “six-week ban” to
reflect that the ban covers all abortions performed approximately
six weeks LMP, usually just two weeks after a missed menstrual
period, when an embryo begins to exhibit electrical impulses but
is not accurately defined as a “fetus” and does not have a
“heartbeat.” (Dkt. 1, at 22) (“[D]espite S.B. 8’s use of the phrase
‘fetal heartbeat,’ the Act forbids abortion even when cardiac
activity is detected in an embryo.”).

7a

pregnancies that result from rape or incest, or for fetal
health conditions that are incompatible with life after
birth—though it does contain an exception for “a
medical emergency . . . that prevents compliance.”
S.B. 8 § 3 (to be codified at Tex. Health & Safety Code
§ 171.205(a)).
S.B. 8 holds liable anyone who performs an
abortion in violation of the six-week ban, and anyone
who “knowingly” aids or abets the performance of an
abortion performed six weeks after LMP. Id.
§ 171.208(a)(1)–(2). Although S.B. 8 does not define
what constitutes aiding or abetting under the statute,
it specifies that paying for or reimbursing the costs of
the abortion falls under the six-week ban, which
applies “regardless of whether the person knew or
should have known that the abortion would be
performed or induced in violation of” S.B. 8. Id. In
addition, a person need not even actually take steps to
“aid and abet” a prohibited abortion to be held liable
under the law if that person intended to help another
person obtain an abortion six weeks from the patient’s
LMP. Id. § 171.208(a)(3).
2. Enforcement of the Six-Week Ban
S.B. 8 is enforced against those who provide
abortions or help patients obtain abortions through a
dual private and public enforcement scheme. S.B. 8’s
centerpiece is its private enforcement scheme, which
empowers private citizens to bring civil actions
against anyone who allegedly performs, or aids and
abets in the performance of, a banned abortion. Id.
§ 171.207(a).5 Under S.B. 8’s public enforcement
5 Despite having no exception to the six-week ban for
pregnancies that result from rape or incest, S.B. 8 precludes
those “who impregnated the abortion patient through rape,

8a

mechanism, state agencies and authorities are tasked
with enforcing state licensing and professional codes
for healthcare provides, whose provisions are
triggered by violations of S.B. 8. Tex. Occ. Code §§
164.053(a)(1)), 301.101, 553.003.
Under S.B. 8’s private enforcement scheme, any
private citizen who is a “natural person residing in”
Texas may bring suit under S.B. 8 in their county of
residence and block transfer to a more appropriate
venue if not consented to by all parties. See id.
§ 171.210(a)(4) (permitting suit in the claimant’s
county of residence if “the claimant is a natural person
residing in” Texas); id. § 171.210(b) (providing that
S.B. 8 “action may not be transferred to a different
venue without the written consent of all parties.”).6
Private citizens who prevail in civil suits brought
under S.B. 8 may be awarded (1) “injunctive relief
sufficient to prevent” future violations or conduct that
aids or abets violations; (2) “statutory damages” to the
claimant “in an amount of not less than $10,000 for
each abortion” that was provided or aided and abetted;
and (3) the claimant’s “costs and attorney’s fees.” Id.
§ 171.208(b). A private citizen may prevail in a civil
suit brought under S.B. 8 without alleging any injury
sexual assault, or incest, or other crimes” from bringing a civil
suit under this section. Id. § 171.208(a). S.B. does not permit
private citizens to bring civil suits again abortion patients. Id. §
171.206(b)(1).
6 S.B. 8 bucks the usual rules in Texas that govern where a
lawsuit can be filed and when a case can be transferred to a
different county. Texas generally limits the venue where an
action may be brought to one where the events giving rise to a
claim took place or where the defendant resides, see Tex. Civ.
Prac. & Rem. Code § 15.002(a), and a Texas state court may
generally transfer venue “[f]or the convenience of the parties and
witnesses and in the interest of justice,” id. § 15.002(b).

9a

caused by the defendants, in contravention of the
traditional rules of standing. (Dkt. 1, at 26).
While empowering private enforcers, S.B. 8 limits
the defenses available to defendants and subjects
them to a fee-shifting regime skewed in favor of
claimants. For example, defendants in S.B. 8
enforcement actions are prohibited from raising
certain defenses enumerated under S.B. 8, including
that they believed the law was unconstitutional; that
they relied on a court decision, later overruled, that
was in place at the time of the acts underlying the suit;
or that the patient consented to the abortion. Id.
§ 171.208(e)(2), (3). S.B. 8 also states that defendants
may not rely on non-mutual issue or claim preclusion
or rely as a defense on any other “state or federal court
decision that is not binding on the court in which the
action” was brought. Id. § 171.208(e)(4), (5).
Although under binding Fifth Circuit precedent
“[s]tates may regulate abortion procedures prior to
viability so long as they do not impose an undue
burden,” Section 5 of S.B. 8 requires state judges to
weigh the undue burden anew in every case as part of
an “affirmative defense” in line with S.B. 8’s new
strictures regarding construction and severability of
claims. S.B. 8 § 5 (to be codified at Tex. Gov. Code
§ 311.036); S.B. 8 §§ 171.209(c), (d)(2)); Jackson
Women’s Health Org. v. Dobbs, 945 F.3d 265, 269 (5th
Cir. 2019), cert. granted, No. 19-1392, 2021 WL
1951792 (U.S. May 17, 2021) (“States may regulate
abortion procedures prior to viability so long as they
do not impose an undue burden” on a patient’s right
to abortion, but states “may not ban abortions.”).
S.B. 8 further creates a novel fee-shifting regime
slanted in favor of S.B. 8 claimants and proponents,

10a

not only in S.B. 8 enforcement actions but in any
challenges to the law, including in the instant case.
S.B. 8 § 30.022. Under Section 4 of S.B. 8 (“Section 4”),
not only may S.B. 8 claimants recover their attorney’s
fees in enforcement actions, but plaintiffs and
attorneys who participate in lawsuits challenging
abortion restrictions in Texas may be liable for
attorney’s fees unless they prevail on all of their initial
claims, regardless of the ultimate outcome of the
litigation. Id. Indeed, Section 4 applies to any
challenge, in state or federal court, to the enforcement
of S.B. 8 or any “law that regulates or restricts
abortion,” or that excludes those who “perform or
promote” abortion from participating in a public
funding program. S.B. 8. S.B. 8 § 30.022.
Defendants in such a challenge need not request
attorney’s fees in the original lawsuit but may file a
new lawsuit in a venue of their choosing to collect
attorney’s fees within three years of a resolution of the
underlying case. Id. § 30.022(c), (d)(1). When resolving
new lawsuits over attorney’s fees, judges are
precluded from taking into account whether the court
in the underlying case already denied fees to the party
defending the abortion restriction, or already
considered the application of Section 4 and held it
“invalid, unconstitutional, or preempted by federal
law.” Id. § 30.022(d)(3). Furthermore, those sued
under S.B. 8 who prevail in their case are barred from
recovering their costs and attorney’s fees even if they
prevail “no matter how many times they are sued or
the number of courts in which they must defend.”
(Dkt. 1, at 27) (citing Tex. Health & Safety Code
§ 171.208(i)).

11a

Under S.B. 8’s public enforcement mechanism,
state agencies are empowered to bring administrative
and civil enforcement actions against medical
professionals who participate in abortions that violate
the six-week ban based on their state-issued licenses.
S.B. 8. Tex. Occ. Code §§ 164.053(a)(1)), 165.101;
243.011–.015,
245.012–.017;
301.10,
553.003,
565.001(a), 565.002. Because subchapter H of S.B. 8,
which includes the six-week ban, will be added to
Chapter 171 of the Texas Health and Safety Code,
violations of the six-week ban trigger enforcement of
other provisions of Chapter 171, as well as regulations
state agencies have jurisdiction to enforce based on a
violation of S.B. 8.
Under the Texas Medical Practice Act, for
example, the Texas Medical Board (“TMB”) must
initiate investigations and disciplinary action against,
as well as refuse to issue or renew licenses to, licensed
physicians who violate a provision of Chapter 171.
See, e.g., Tex. Occ. Code § 164.055(a) (TMB “shall take
an appropriate disciplinary action against a physician
who violates . . . Chapter 171, Health and Safety
Code.”); see id. (TMB “shall . . . refuse to issue a license
or renewal license to a person who violates that . . .
chapter.”); Tex. Occ. Code § 164.052(a)(5),
§ 164.001(b)(2)–(3) (TMB, “on determining that a
person committed an act described by Sections
164.051 through 164.054, shall enter an order” of
discipline, which may include suspension, limitation,
or revocation of a physician’s license.”); Tex. Admin.
Code § 176.2(a)(3), 176.8(b) (“TMB must investigate
and “shall . . . review the medical competency” of
licensees who have been named in three or more
[healthcare-related] lawsuits within a five-year
period.”). The Texas Board of Nursing (“TBN”), Texas

12a

Board of Pharmacy (“TBP”), and Health and Human
Services Commission (“HHSC”) have similar
authority to take disciplinary actions against those
who violate S.B. 8. Tex. Occ. Code §§ 301.453(a) (TBN
“shall enter an order imposing” discipline for
violations of the Nursing Practice Act), 301.452(b)(1),
565.001(a), 565.002 (empowering TBP to take
disciplinary, administrative or civil action against
violators of the Texas Pharmacy Act); Tex. Health &
Safety
Code
§§
243.011–.015,
245.012–.017
(empowering HHSC to take disciplinary or civil action
against licensed abortion facilities and ambulatory
surgical centers (“ASC”) based on violations of the
Medical Practice Act. 25 Tex. Admin. Code §§ 135.4(l)
(requiring abortion-providing ASCs to comply with
rules for abortion facilities), § 139.60(c), (l);
§ 217.11(1)(A), 213.33(b) (imposing disciplinary
measures for nurses who fail to “ conform to . . . all
federal, state, or local laws, rules or regulations
affecting the nurse’s current area of nursing
practice.”).
C. The Parties
1. Plaintiffs
Plaintiffs are comprised of those who provide
abortion services, the Provider Plaintiffs, and those
who support patients in need of an abortion, the
Advocate Plaintiffs.
The Provider Plaintiffs7 include reproductive
healthcare providers across the state of Texas, who
7 The Provider Plaintiffs in this action include Whole
Woman’s Health, Alamo City Surgery Center PLLC d/b/a Alamo
Women’s Reproductive Services (“Alamo”), Brookside Women’s
Medical Center PA d/b/a Brookside Women’s Health Center and
Austin Women’s Health Center (“Austin Women’s”), Houston

13a

bring this suit on behalf of themselves, their
physicians, nurses, pharmacists, other staff, and
patients. (Dkt. 1, at 9–12). All of the Provider
Plaintiffs allege that the “vast majority” of the
abortions performed in their facilities occur after the
six-week ban imposed by S.B. 8. (See id.). As such, the
Provider Plaintiffs all perform abortions that will be
proscribed by S.B. 8 when it takes effect September 1,
2021. (Id. at 12). The Provider Plaintiffs allege that if
S.B. 8 takes effect, they and their staff will “suffer
profound harm to their property, business,
reputations, and a deprivation of their own
constitutional rights.” (Id. at 34).
Since many abortions provided by the Provider
Plaintiffs occur after six weeks of a patient’s LMP,
they allege they could not “sustain operations if
barred from providing the bulk of their current care.”
(Id. at 32). If the Provider Plaintiffs continued to offer
abortions that they believe are constitutionally
protected, but are prohibited by S.B. 8, they and their
staff will risk private enforcement suits and
professional discipline. (Id. at 32–33). Provider
Plaintiffs further allege that S.B. 8 Section 4’s feeshifting provision impacts their “right to petition the
courts and to speak freely” because they may be
exposed to “potentially ruinous liability for attorney’s
Women’s Clinic, Houston Women’s Reproductive Services
(“HWRS”), Planned Parenthood of Greater Texas Surgical
Health Services (“PPGT Surgical Health Services”), Planned
Parenthood South Texas Surgical Center (“PPST Surgical
Center”), Planned Parenthood Center for Choice (“PP Houston”),
Southwestern Women’s Surgery Center (“Southwestern”), Whole
Woman’s Health Alliance, Allison Gilbert, M.D., and Bhavik
Kumar, M.D. (together, “the Provider Plaintiffs”). (Dkt. 1, at 9–
12).

14a

fees and costs” as they bring lawsuits to vindicate
their constitutional rights. (Id. at 33–34).
The Advocate Plaintiffs8 provide support to those
in need of abortions and advocate for reproductive
rights within Texas and fear that “because they
advocate for abortion patients through activities that
may be alleged to aid and abet abortions prohibited by
[S.B. 8], [they] face a credible threat of enforcement.”
(Dkt. 1, at 12–14). The Advocate Plaintiffs allege that
if S.B. 8 takes effect September 1, they will be forced
to redirect resources to support Texans who need to
leave the state to obtain an abortion after 6 weeks
LMP. (Id. at 34). If the Advocate Plaintiffs continue to
support those seeking abortions banned by S.B. 8,
they will likely face “enforcement lawsuits for aiding
and abetting abortions prohibited by S.B. 8” or
“engaging in First Amendment-protected speech and
other activity in support of abortion.” (Id. at 34–35).
Specifically, Reverends Forbes and Kanter worry that
their efforts to provide spiritual and emotional
counseling to “patients and parishioners” will expose
them to “costly and burdensome civil lawsuits,” and
that this risk extends to “other clergy members,
counselors, and advisors (such as sexual assault and
genetic counselors), as S.B. 8 incentivizes lawsuits
accusing individuals of aiding and abetting prohibited
abortions” through generous award of fees to
successful claimants. (Id.).

8 The Advocate Plaintiffs include The Afiya Center, Frontera
Fund, Fund Texas Choice, Jane’s Due Process, Lilith Fund for
Reproductive Equity (“Lilith Fund”), North Texas Equal Access
Fund (“TEA Fund”), Marva Sadler, Reverend Daniel Kanter
(“Kanter”), and Reverend Erika Forbes (“Forbes”). (together, “the
Advocate Plaintiffs.”). (Dkt. 1, at 12–14).

15a

2. Defendants
Defendant the Honorable Austin Reeve Jackson
(“Jackson”) is the judge for the 114th District Court in
Smith County, Texas, a court with jurisdiction over
S.B. 8 claims. (Dkt. 1, at 15). Defendant Penny
Clarkston (“Clarkston”) is the Clerk for the District
Court of Smith County and in that role is charged with
accepting civil cases for filing and issuing citations for
service of process upon the filing of a civil lawsuit.
(Id.). Both Jackson and Clarkston are sued in their
official capacities and as representatives of two
putative classes consisting of all state judges and
clerks in Texas with the authority to initiate S.B. 8
enforcement actions and exert their coercive power
over Plaintiffs to participate in and be sanctioned by
S.B. 8 actions. (Id. at 15–16; see also Mot. Certify
Class, Dkt. 32). Defendant Jackson recently
participated in a press conference regarding the
instant suit, in which he referred to himself as one of
“the judges who enforce [S.B. 8] in east Texas.” (Aug.
4 Press Conf. Tr., Dkt. 53-1, at 4).
Defendant Stephen Brint Carlton is the Executive
Director of the Texas Medical Board (“TMB”) and in
that capacity serves as the chief executive and
administrative officer of TMB. (Dkt. 1, at 16–17)
(citing Tex. Occ. Code § 152.051). Defendant
Katherine A. Thomas is the Executive Director of the
Texas Board of Nursing (“TBN”) and in that role
performs duties as required by the Nursing Practice
Act, and as designated by the TBN. (Id. at 17–18)
(citing Tex. Occ. Code § 301.101). Defendant Allison
Vordenbaumen Benz is the Executive Director of the
Texas Board of Pharmacy (“TBP”) and in that capacity
performs duties under the Texas Pharmacy Act, or

16a

designated by the TBP. (Id. at 19) (citing Tex. Occ.
Code § 553.003). Defendant Cecile Erwin Young is the
Executive Commissioner of the Texas Health and
Human Services Commission (“HHSC”), which
licenses and regulates abortion facilities and
ambulatory surgical centers (“ASCs”) operated by
Provider Plaintiffs. (Id. at 18) (citing Tex. Health &
Safety Code §§ 243.011, 245.012).
Defendant Ken Paxton is the Attorney General of
Texas. He is empowered to institute an action for a
civil penalty against physicians and physician
assistants licensed in Texas who are in violation of or
threatening to violate any provision of the Medical
Practice Act, including provisions triggered by a
violation of S.B. 8. (Id. at 19–20) (citing Tex. Occ. Code
§ 165.101).9
Defendant Mark Lee Dickson is a resident of
Longview, Texas, who serves as the Director of Right
to Life East Texas. (Dkt. 1, at 16). Dickson has
advocated for the adoption of state and local laws
prohibiting abortions and has expressed his intent to
bring civil enforcement actions as a private citizen
under S.B. 8. (Id. at n.4, 33).

9 The “State Agency Defendants” refers to those members of
the Texas government authorized to enforce S.B. 8 through
existing state laws, regulations, licensing and professional codes,
including Stephen Brint Carlton, Executive Director of the Texas
Medical Board, Katherine A. Thomas, Executive Director of the
Texas Board of Nursing, Allison Vordenbaumen Benz, Executive
Director of the Texas Board of Pharmacy, Cecile Erwin Young,
Executive Commissioner of the Texas Health and Human
Services Commission, and Ken Paxton, Attorney General of
Texas.

17a

II. LEGAL STANDARDS
A. 12(b)(1)
Federal Rule of Civil Procedure 12(b)(1) allows a
party to assert lack of subject-matter jurisdiction as a
defense to suit. Fed. R. Civ. P. 12(b)(1). Federal
district courts are courts of limited jurisdiction and
may only exercise such jurisdiction as is expressly
conferred by the Constitution and federal statutes.
Kokkonen v. Guardian Life Ins. Co. of Am., 511 U.S.
375, 377 (1994). A federal court properly dismisses a
case for lack of subject matter jurisdiction when it
lacks the statutory or constitutional power to
adjudicate the case. Home Builders Ass’n of Miss., Inc.
v. City of Madison, 143 F.3d 1006, 1010 (5th Cir.
1998). “The burden of proof for a Rule 12(b)(1) motion
to dismiss is on the party asserting jurisdiction.”
Ramming v. United States, 281 F.3d 158, 161 (5th Cir.
2001), cert. denied, 536 U.S. 960 (2002). “Accordingly,
the plaintiff constantly bears the burden of proof that
jurisdiction does in fact exist.” Id. In ruling on a Rule
12(b)(1) motion, the court may consider any one of the
following: (1) the complaint alone; (2) the complaint
plus undisputed facts evidenced in the record; or (3)
the complaint, undisputed facts, and the court’s
resolution of disputed facts. Lane v. Halliburton, 529
F.3d 548, 557 (5th Cir. 2008).
B. Standing
Under Article III of the Constitution, federal court
jurisdiction is limited to cases and controversies. U.S.
Const. art. III, 2, cl. 1; Raines v. Byrd, 521 U.S. 811,
818 (1997). A key element of the case-or-controversy
requirement is that a plaintiff must establish
standing to sue. See Lujan v. Defenders of Wildlife, 504
U.S. 555, 561 (1992).

18a

To establish Article III standing, a plaintiff must
demonstrate that she has “(1) suffered an injury-infact, (2) that is fairly traceable to the challenged
conduct of the defendant, and (3) that is likely to be
redressed by a favorable judicial decision.” Id. at 560–
61. “For a threatened future injury to satisfy the
imminence requirement, there must be at least a
‘substantial risk’ that the injury will occur.” Stringer
v. Whitley, 942 F.3d 715, 721 (5th Cir. 2019) (quoting
Susan B. Anthony List v. Driehaus, 573 U.S. 149, 158
(2014)). A plaintiff suffers injury-in-fact for purposes
of “bring[ing] a preenforcement suit when he has
alleged an intention to engage in a course of conduct
arguably affected with a constitutional interest, but
proscribed by a statute, and there exists a credible
threat of prosecution thereunder.” Susan B. Anthony
List, 573 U.S. at 160. A credible threat of enforcement
exists when it is not “imaginary or wholly
speculative.” Babbitt v. United Farm Workers Nat’l
Union, 442 U.S. 289, 302 (1979).
The purpose of these requirements is to ensure
that plaintiffs have “such a personal stake in the
outcome of the controversy as to assure that concrete
adverseness which sharpens the presentation of
issues upon which the court so largely depends for
illumination.” Massachusetts v. EPA, 549 U.S. 497,
517 (2007) (quoting Baker v. Carr, 369 U.S. 186 (1962)
(internal quotation marks removed)). “[I]n the context
of injunctive relief, one plaintiff’s successful
demonstration of standing ‘is sufficient to satisfy
Article III’s case-or-controversy requirement.’ ” Tex.
Democratic Party v. Abbott, No. 20-50407, 2020 WL
5422917, at *4 (5th Cir. Sept. 10, 2020) (quoting Texas
v. United States, 945 F.3d 355, 377–78 (5th Cir. 2019).
Further, “[t]he injury alleged as an Article III injury-

19a

in-fact need not be substantial; it need not measure
more than an identifiable trifle.” OCA-Greater Hous.
v. Texas, 867 F.3d 604, 612 (5th Cir. 2017) (quotations
omitted). This is because the injury-in-fact
requirement under Article III is qualitative, not
quantitative, in nature.” Id.
C. Sovereign Immunity
The Eleventh Amendment typically deprives
federal courts of jurisdiction over “suits against a
state, a state agency, or a state official in his official
capacity unless that state has waived its sovereign
immunity or Congress has clearly abrogated it.” Moore
v. La. Bd. of Elementary & Secondary Educ., 743 F.3d
959, 963 (5th Cir. 2014). However, under the Ex parte
Young exception to sovereign immunity, lawsuits may
proceed in federal court when a plaintiff requests
prospective relief against state officials in their official
capacities for ongoing federal violations. 209 U.S. 123,
159–60 (1908). Thus, “[t]here are three basic elements
of an Ex parte Young lawsuit. The suit must: (1) be
brought against state officers who are acting in their
official capacities; (2) seek prospective relief to redress
ongoing conduct; and (3) allege a violation of federal,
not state, law.” Williams ex rel. J.E. v. Reeves, 954
F.3d 729, 736 (5th Cir. 2020).
The Supreme Court has instructed lower courts
evaluating whether state officials are subject to suit
under the exception to sovereign immunity to conduct
a “straightforward inquiry into whether [the]
complaint alleges an ongoing violation of federal law
and seeks relief properly characterized as
prospective.” Va. Office for Prot. & Advocacy v.
Stewart, 563 U.S. 247, 253 (2011). If so, the Court
must then examine whether “the state official, ‘by

20a

virtue of his office,’ must have ‘some connection with
the enforcement of the [challenged] act, or else [the
suit] is merely making him a party as a representative
of the state, and thereby attempting to make the state
a party.’ ” City of Austin v. Paxton, 943 F.3d 993, 997
(5th Cir. 2019), cert. denied sub nom. City of Austin,
Texas v. Paxton, 141 S. Ct. 1047 (2021) (quoting
Young, 209 U.S. at 157). The Fifth Circuit has not
established “a clear test for when a state official is
sufficiently connected to the enforcement of a state
law so as to be a proper defendant under Ex parte
Young.”. Texas Democratic Party v. Hughs, No. 2050683, 2021 WL 1826760 (5th Cir. May 7, 2021); City
of Austin, 943 F.3d at 997 (“What constitutes a
sufficient connection to enforcement is not clear from
our jurisprudence.”) (cleaned up).
While “[t]he precise scope of the ‘some connection’
requirement is still unsettled,” the Fifth Circuit has
stated that “it is not enough that the official have a
‘general duty to see that the laws of the state are
implemented.’ ” Texas Democratic Party, 961 F.3d at
400–01 (quoting Morris v. Livingston, 739 F.3d 740,
746 (5th Cir. 2014)). And “[i]f the official sued is not
statutorily tasked with enforcing the challenged law,
then the requisite connection is absent and ‘[the]
Young analysis ends.’ ” City of Austin, 943 F.3d at
998). Where, as here, “no state official or agency is
named in the statute in question, [the court]
consider[s] whether the state official actually has the
authority to enforce the challenged law.” Id.
III. DEFENDANTS’ MOTIONS TO DISMISS
All Defendants filed motions to dismiss Plaintiffs’
claims against them on jurisdictional bases. (See SAD
Mot. Dismiss, Dkt. 48; Jackson Mot. Dismiss, Dkt. 49;

21a

Dickson Mot. Dismiss, Dkt. 50; Clarkston Mot.
Dismiss, Dkt. 51). The Court will address the motions
to dismiss below.
A. SAD Motion to Dismiss
Provider Plaintiffs seek relief against the State
Agency Defendants (“SAD”) based on their authority
to enforce other statutes and regulations against
licensed abortion facilities, ambulatory surgical
centers, pharmacies, physicians, physician assistants,
nurses, and pharmacists that are triggered by a
violation of S.B. 8, and their ability to directly enforce
Section 4’s fee-shifting regime in this or other
challenges to S.B. 8’s constitutionality. (Compl., Dkt.
1, at 33–34). The SAD moved to dismiss Provider
Plaintiffs’ claims against them as barred by sovereign
immunity and for lack of standing. (See SAD Mot.
Dismiss, Dkt. 48). Plaintiffs filed a response, (Dkt. 56),
and the SAD filed a reply, (Dkt. 63).
1. Sovereign Immunity
The SAD argue that Plaintiffs’ claims are barred
by sovereign immunity and do not fall within the Ex
Parte Young exception. (Mot. Dismiss, Dkt. 48, at 6).
Specifically, the SAD argue that S.B. 8 explicitly
precludes enforcement actions to be brought by “an
executive or administrative officer or employee of this
state” and that any threat that the SAD will seek fees
under Section 4 or institute disciplinary actions
through the health-related laws and regulations
triggered by violations of S.B. 8 are too speculative to
establish a “particular duty to enforce the statute in
question.” (Dkt. 48, at 6) (citing Morris v. Livingston,
739 F.3d 740, 746 (5th Cir. 2014)).
Plaintiffs respond that the SAD are in fact tasked
with in enforcement of S.B. 8 and have the requisite

22a

connection the law’s enforcement against the Provider
Plaintiffs because the SAD may seek legal fees under
Section 4 and can force them to “comply with the Act
by bringing an enforcement action to constrain the
Provider Plaintiffs and their physicians, nurses, and
pharmacists from violating S.B. 8’s restrictions on
providing and assisting with abortion.” (Pls.’ Resp.,
Dkt. 56, at 14) (citing K.P. v. LeBlanc (“K.P. I”), 627
F.3d 115, 124 (5th Cir. 2010)). The Court agrees and
finds Plaintiffs’ action against the SAD is not barred
by sovereign immunity because the SAD’s
enforcement capacity under S.B. 8 place them within
the Ex Parte Young exception.
First, the Court finds that S.B. 8’s prohibition on
direct enforcement of S.B. 8 by state officials does not
preclude the SAD’s ability to enforce violations of
other state laws triggered by a violation of S.B. 8, such
as the Medical Practice Act, Nursing Practice Act, and
Pharmacy Act. See, e.g., Tex. Occ. Code §§ 301.453(a);
301.452(b)(1), 565.001(a), 565.002; Tex. Health &
Safety Code §§ 243.011–.015, 245.012–.017; Tex.
Admin. Code § § 135.4(l), 139.60(c), (l); § 217.11(1)(A),
213.33(b)). The parties quibble about the meaning of
S.B. 8’s admonition that “[n]o enforcement of this
subchapter, and no enforcement of Chapters 19 and
22, Penal Code, in response to violations of this
subchapter, may be taken or threatened by this state,
a political subdivision, a district or county attorney, or
an executive or administrative officer or employee of
this state or a political subdivision against any
person.” S.B. 8 § 3 (to be codified at Tex. Health &
Safety Code § 171.207(a)). While the SAD are correct
that they are precluded from enforcing S.B. 8 Section
3 through the private enforcement mechanism created
under the law, nowhere does S.B. 8 indicate that it

23a

refers to the provisions of the Medical Practice Act,
Nursing Practice Act, and Pharmacy Act or the State’s
ability to enforce such provisions under Chapter 171.
The Court thus finds that there is no conflict between
S.B. 8’s prohibition on the SAD’s private enforcement
of S.B. 8 and the SAD’s enforcement authority under
existing Texas laws that may be triggered by a
violation of S.B. 8. See City of Austin v. Paxton, 943
F.3d 993, 1001 (5th Cir. 2019), cert. denied sub nom.
City of Austin, Texas v. Paxton, 141 S. Ct. 1047 (2021)
(“direct enforcement of the challenged law . . . not
required: actions that constrain[ ] the plaintiffs [are]
sufficient to apply the Young exception”); K.P. v.
LeBlanc (“K.P. I”), 627 F.3d 115, 124 (5th Cir. 2010) (“
‘Enforcement’ typically involves compulsion or
constraint.”)
Second, the Court finds that the SAD have the
requisite
connection
to
enforcement
and
demonstrated willingness the enforce Section 4 and
the state laws triggered by S.B. 8 violations so as to
bring their conduct within the Ex Parte Young
exception to sovereign immunity. While the SAD are
correct that some of the disciplinary and civil actions
triggered violations of Section 3 of S.B. 8 are within
the discretion of the SAD to bring, others are
mandatory. Compare Tex. Occ. Code § 165.001; see
also id. § 165.101 (attorney general may institute an
action for civil penalties against a licensed physician
for certain violations); id. § 301.501 (Board of Nursing
“may impose an administrative penalty”); id. §
566.001(1) (same as to Board of Pharmacy); Tex.
Health & Safety Code § 245.017 (HHSC “may assess
an administrative penalty”) with Tex. Occ. Code §
164.052(a)(5), § 164.001(b)(2)–(3) (TMB “shall enter

24a

an order” disciplining any physician who violate
certain provisions of the Texas Medical Act).
Plaintiffs argue that as in Air Evac EMS, Inc. v.
Tex., Dep’t of Ins., Div. of Workers’ Comp., where the
Fifth Circuit held that Ex Parte Young applied to state
officials who, though not empowered to directly
enforce challenged statute, “obviously constrain[ed]”
the plaintiff under the law through administrative
proceedings, here the SAD are similarly authorized
and mandated to enforce violations of existing Texas
laws stemming from a violation of S.B. 8. 51 F.3d 507,
519 (5th Cir. 2017). Similarly, in K.P. v. LeBlanc
(“K.P. I”), the Fifth Circuit found that state agency
defendants who reviewed abortion-related claims for
medical malpractice coverage fell within the Ex Parte
Young because their responsibilities under the statute
demonstrated that they were “delegated some
enforcement authority.” 627 F.3d 115, 124 (5th Cir.
2010); see also Air Evac, 851 F.3d 518–19 (noting that
board members in K.P. “had a specific means through
which to apply the abortion statute”). The Court
agrees and finds that the SAD have “specific means”
to directly enforce Section 4 and to enforce Section 3
through disciplinary and civil actions against Provider
Plaintiffs. Thus, the SAD’s authority to enforce S.B. 8
falls within the Ex Parte Young exception to sovereign
immunity. City of Austin, 943 F.3d at 1000–02
(“Panels in this circuit have defined ‘enforcement’ as
‘typically involv[ing] compulsion or constraint.’ ”); Air
Evac, 851 F.3d 518–19.
The parties dispute whether Provider Plaintiffs
must demonstrate that the SAD have a “demonstrated
willingness” to enforce S.B. 8 in order to bring them
within the Ex Parte Young exception. (Dkt. 48, at 8;

25a

Dkt. 56, at 16). Although it is unclear whether binding
Fifth Circuit precedent requires Provider Plaintiffs to
show a demonstrated willingness by the SAD to
enforce Sections 3 and 4, the Fifth Circuit has
nonetheless cited with approval, though has not fully
endorsed, such a requirement. See City of Austin 943
F.3d 993, 1000 (“[W]e find that we need not define the
outer bounds of this circuit’s Ex parte Young analysis
today—i.e., whether Attorney General Paxton must
have ‘the particular duty to enforce the statute in
question and a demonstrated willingness to exercise
that duty’ to be subject to the exception.”); but see
Morris v. Livingston, 739 F.3d 740, 746 (5th Cir. 2014)
(The required “connection” is not “merely the general
duty to see that the laws of the state are
implemented,” but “the particular duty to enforce the
statute in question and a demonstrated willingness to
exercise that duty.”) (quoting Okpalobi v. Foster, 244
F.3d 405, 416 (5th Cir. 2001)).
The Court finds that the Provider Plaintiffs have
sufficiently alleged a demonstrated willingness on the
part of the SAD to enforce abortion restrictions
through administrative actions and that such actions
are likely imminent here. First, the SAD’s
“longstanding defense of their enforcement authority
under other abortion restrictions” demonstrates their
willingness to enforce the S.B. 8 to the extent they are
empowered to do so. (Dkt. 56, at 18) (citing In re
Abbott, 956 F.3d 696 (5th Cir. 2020), vacated as moot
by Planned Parenthood Ctr. for Choice v. Abbott, 141
S. Ct. 1261 (2021) (mem.) (COVID abortion ban);
Whole Woman’s Health v. Paxton, 978 F.3d 896 (5th
Cir. 2020), reh’rg en banc granted, vacated by 978 F.3d
974 (5th Cir. 2020) (mem.)). Indeed, in In re Abbott,
the Fifth Circuit noted that the State had “threatened

26a

that [the anti-abortion statute] would be enforced” by
“health
and
law
enforcement
officials”—
demonstrating the State’s existing intent to enforce
abortion restrictions through health officials such as
the defendants named here. 956 F.3d at 709. The SAD
also have demonstrated their willingness to pursue
professional discipline of medical professionals who
violate state laws, such as the Texas Medical Practice
Act. See, e.g., Emory v. Texas State Bd. of Med.
Examiners, 748 F.2d 1023, 1025 (5th Cir. 1984)
(violation of federal law by plaintiff triggered TMB to
“h[o]ld a hearing in [plaintiff’s] absence and cancel[ ]
his [medical] license”); Andrews v. Ballard, 498 F.
Supp. 1038, 1041 (S.D. Tex. 1980). Here, the State’s
prior demonstrated willingness to enforce antiabortion laws through health officials and actual use
of
disciplinary
proceedings
against
medical
professionals who violate laws that trigger such
discipline is sufficient to establish that the SAD have
a demonstrated willingness to enforce S.B. 8 through
health officials.
The parties do not dispute that the SAD have the
authority to enforce Section 4 but rather dispute
whether the SAD have demonstrated a willingness to
enforce the provision. See S.B. 8 § 4 (adding § 30.022,
making Plaintiffs liable for fees to any “public official
in this state” who defends a Texas abortion
restriction.). The Court rejects the SAD’s argument
that they have not demonstrated their willingness to
enforce Section 4 because they have not yet requested
attorney’s fees, as it would be impossible for them to
have already requested fees in this case or any other
one related to S.B. 8 since the law has not yet taken
effect. Furthermore, Plaintiffs may bring a preenforcement challenge to the SAD’s enforcement of

27a

the provision where they face a credible threat of
enforcement. (Reply, Dkt. 63, at 5–6); see Susan B.
Anthony List v. Driehaus, 573 U.S. 149, 164 (2014).
Indeed, the Provider Plaintiffs have demonstrated
that the SAD have the power to exert “compulsion or
constraint” over them in initiating disciplinary or civil
proceedings against the Provider Plaintiffs for
violations of Texas law triggered by failure to comply
with S.B. 8, and as explained above, the SAD have
previously defended their authority to enforce
abortion restrictions. Because the SAD have
demonstrated their willingness to enforce abortion
restrictions and may enforce the slew of disciplinary,
administrative and civil actions triggered by a
violation of S.B. 8’s six-week ban, the Provider
Plaintiffs have sufficiently alleged that the SAD have
more than “some scintilla of ‘enforcement’ ” authority
to enforce Sections 3 and 4 of S.B. 8 so as to satisfy Ex
Parte Young. City of Austin, 943 F.3d at 1000–02
(“Panels in this circuit have defined ‘enforcement’ as
‘typically involv[ing] compulsion or constraint.’”).
For all these reasons, the Court finds that the
SAD’s enforcement authority under S.B. 8 places them
within the Ex parte Young exception to sovereign
immunity as to the Provider Plaintiffs’ claims against
them.
2. Standing
The SAD also move to dismiss the Provider
Plaintiffs’ claims against them for lack of standing.
(Dkt. 48, at 9). First, the SAD argue that the Provider
Plaintiffs have failed to plead an imminent or ripe
injury because their fear of enforcement actions by
SAD are “conjectural” at this time since the law has
not taken effect. (Id. at 11–12). In the absence of a

28a

cognizable injury, the SAD’s argument goes, Plaintiffs’
claims fail for lack of standing, or alternatively, for
lack of ripeness. (Id. at 11–15). The SAD further argue
that the Provider Plaintiffs lack third-party standing
to bring claims on behalf of their employees. (Id.). The
Court will address each of the SAD’s standing
arguments in turn.
a. Cognizable injury and Ripeness
The SAD argue that Plaintiffs have not alleged a
plausible threat of enforcement of S.B. 8 by the SAD
under the statute’s public enforcement mechanism or
under Section 4. (Id. at 12). They rely on essentially
the same arguments to suggest that this suit is not
ripe since S.B. 8 has not taken effect and, as such, the
Provider Plaintiffs have not faced any enforcement
actions. (Dkt. 48, at 12–13; Reply, Dkt. 63, at 8).
The SAD first contend that the Provider Plaintiffs’
claimed injuries under Section 3 rely on a “chain of
contingencies” because any such a disciplinary
proceeding by the SAD would first require a violation
of S.B. 8 that is reported the applicable state agency,
and would then have to decide to investigate the
violation and to impose liability on the offender. (Dkt.
48, at 12) (citing Clapper v. Amnesty Int’l USA, 568
U.S. 398, 410 (2013)). The SAD further argue that the
Provider Plaintiffs’ claim is not ripe for the same
reason—their purported injury is “contingent on
multiple future events.” (Id. at 13). The Provider
Plaintiffs respond that they have demonstrated an
imminent and ripe injury stemming from the potential
administrative actions the SAD may initiate against
the Provider Plaintiffs. (Dkt. 56, at 20). Because the
Provider Plaintiffs provide abortions that will be
banned once S.B. 8 takes effect, they will either have

29a

to violate S.B. 8 and await disciplinary actions against
them by the SAD or cease to provide what they believe
to be constitutionally-protected healthcare, causing
harm to their patients. (Id. at 21). Furthermore, the
Provider Plaintiffs assert that they need not wait until
S.B. 8 takes effect, violate S.B. 8 by continuing to serve
their patients, and then face enforcement actions by
the SAD in order to demonstrate an impending
injury—especially given that the SAD have not
disavowed their ability or intent to enforce S.B. 8
through its public enforcement mechanism. (Id. at 21)
(citing MedImmune, Inc. v. Genentech, Inc., 549 U.S.
118, 128–29 (2007); Roark & Hardee LP v. City of
Austin, 522 F.3d 533, 542 (5th Cir. 2008)).
The Provider Plaintiffs further respond that their
alleged injuries “are not so contingent” as the SAD
suggest because they are required to report
healthcare-related lawsuits to licensing authorities
and private citizens may file complaints with the
relevant disciplinary agencies and have done so in the
past. (Dkt. 56, at 22) (Linton Decl., Dkt. 19-6, at 5)
(“We thus expect complaints and lawsuits filed
against us and the staff if we provide abortions,
including permitted abortions, after September 1.”);
(Ferringno Decl., Dkt. 19-3, at 3–4) (“Plaintiffs . . . are
regularly harassed by anti-abortion vigilantes, who
file false complaints with licensing authorities to
trigger government investigations.”); (Ferrigno Decl.,
Dkt. 19-3, at 3) (“These protesters have also filed false
complaints against our physicians, attempting to
provoke an investigation by the Texas Medical Board.
We typically have one complaint filed against a
physician at each clinic every year.”); (Rosenthal
Decl., Dkt. 19-9, at 4) (“I understand that my staff and
I would risk ruinous licensure consequences, because

30a

a violation of SB 8 could also trigger disciplinary
action by the Texas Medical and Nursing Board, and
that the clinic could likewise potentially lose its
license.”). Because the Provider Plaintiffs face a
credible threat of enforcement whether they violate
S.B. 8 or not beginning September 1, they have alleged
a cognizable injury for standing purposes and their
Section 3 claims are ripe for resolution.
The Provider Plaintiffs further argue that they
have demonstrated standing as to Section 4’s feeshifting provision because they face a credible threat
of a future action for fees under S.B. 8, which will
immediately chill their First Amendment right to
petition the courts to vindicate their constitutional
rights. (Dkt. 56, at 19) (citing Gilbert Decl., Dkt. 19-1,
at 11) (Section 4 “will chill our ability to bring cases or
present claims to vindicate the rights of ourselves and
our patients, due to fears that if we are not 100%
successful, there will be serious financial
consequences.”). Plaintiffs correctly point out that
while their injury cannot be a byproduct of the current
litigation, here the Provider Plaintiffs challenge the
constitutionality of the fee-shifting provision itself
and the harm it is likely to cause them, even in the
instant action. (Dkt. 56, at 19–20) (citing Diamond v.
Charles, 476 U.S. 54, 70 (1986); see also Funeral
Consumers All., Inc. v. Serv. Corp. Int’l, 695 F.3d 330,
341 (5th Cir. 2012).
Members of the Provider Plaintiffs submitted
declarations averring that the possibility of fee
awards in S.B. 8 cases will have a chilling effect on
their ability to engage in constitutionality-protected
activity, which is sufficient to establish an impending
injury-in-fact for the purposes of standing. (Dkt. 56, at

31a

20); (Lambrecht Decl., Dkt. 19-5, at 12) (“I am also
concerned about the impact that S.B. 8. will have on
the arguments we bring in litigation [due to] the
possibility of huge legal bills . . . every time we bring
a claim that is well-founded and in good faith.”);
(Sadler Decl., Dkt. 19-11) (“S.B. 8’s fee-shifting
provision could make us liable for costs and attorney’s
fees in these cases, impairing our ability to use
litigation to vindicate our rights and those of our
patients.”); Funeral Consumers, 695 F.3d at 341 (“The
interest at issue (mandatory attorneys’ fees and costs)
is related to this injury-in-fact because the plain
language and undisputed purpose of the mandatory
attorneys’ fees and costs provision (to discourage
potential defendants from violating antitrust laws)
helps prevent the violation of the legally protected
right.”).
Although the SAD emphasize that the Provider
Plaintiffs have not identified any fee requests or
threats of such a request by the SAD, yet since S.B. 8
does not take effect until September 1, it would be
impossible for the Provider Plaintiffs to allege as
much. (Dkt. 63, at 7). The SAD also argue that the
existence of the present lawsuit indicates that the
Provider Plaintiffs’ ability to bring lawsuits
challenging abortion restrictions will not be chilled by
S.B. 8. (Id.). That is not a logically sound argument.
The Provider Plaintiffs specifically brought this
lawsuit prior to S.B. 8 taking effect to prevent such a
constitutional violation. (See Compl., Dkt. 1, at 46).
Furthermore, the Provider Plaintiffs may establish
standing in a pre-enforcement suit challenging the
constitutionality of a state law by alleging a threat of
future enforcement. See Susan B. Anthony List, 573
U.S. at 164 (credible threat of future enforcement

32a

sufficient to establish standing in pre-enforcement
action); Holder v. Humanitarian L. Project, 561 U.S.
1, 15–16 (2010) (finding standing in a pre-enforcement
action). As noted above, the Provider Plaintiffs have
demonstrated a credible threat of an impending injury
once S.B. 8 takes effect on September 1, and as such
have demonstrated that they have standing to
challenge Section 4. (See, e.g., Gilbert Decl., Dkt. 19-1,
at 11).
b. Third-party Standing
The SAD next argue that the Provider Plaintiffs
have failed to demonstrate either organizational or
third-party standing to bring their claims on behalf of
their employees and staff. (Dkt. 48, at 15). As noted
above, however, “in the context of injunctive relief, one
plaintiff’s successful demonstration of standing ‘is
sufficient to satisfy Article III’s case-or-controversy
requirement.’ ” Tex. Democratic Party, 2020 WL
5422917, at *4 (5th Cir. Sept. 10, 2020); Planned
Parenthood of Greater Tex. Surgical Health Servs. v.
Abbott, 748 F.3d 583, 589 (5th Cir. 2014). Here, at
least one of the physician-parties has standing to seek
relief against each of the SAD based on their
performance of abortions S.B. 8 purports to ban. (See
Gilbert Decl., Dkt. 19-1, at 1, 10) (“I am also a Staff
Physician . . . [b]ecause S.B. 8 allows almost anyone to
sue me, Southwestern, and the staff who work with
me, I fear that I will be subject to multiple frivolous
lawsuits that will take time and emotional energy—
and prevent me from providing the care my pregnant
patients need.”); (Kumar Decl., Dkt. 19-2, at 1, 34) (“I
am also a staff physician at Planned Parenthood
Center for Choice (“PPCFC”), where I provide
abortions.”). As such, this Court need not consider the

33a

standing of other plaintiffs asserting the same claim
for the purposes of issuing injunctive and declaratory
relief. Horne v. Flores, 557 U.S. 433, 446 (2009);
Arlington
Heights
v.
Metropolitan
Housing
Development Corp., 429 U.S. 252, 264, n.9 (1977)
(“[W]e have at least one individual plaintiff who has
demonstrated standing . . . because of the presence of
this plaintiff, we need not consider whether the other
individual and corporate plaintiffs have standing to
maintain the suit.”).
To the extent the Provider Plaintiffs are required
to establish third-party standing for the purposes of
obtaining injunctive and declaratory relief on behalf of
their employees, they have made such a showing
because the Provider Plaintiffs have demonstrated
that they have a “close relationship” with their
employees and there is a “hindrance” in their
employees’ ability to protect their own rights.
Kowalski v. Tesmer, 543 U.S. 125, 130 (2004).
First, the Provider Plaintiffs argue that under
Fifth Circuit precedent, they may bring claims on
behalf of their employees because their interests are
“fully aligned” in that they “all seek to avoid S.B. 8’s
devastating penalties, including adverse licensing
actions, which will force them to turn away patients
and, in many cases, close clinic doors permanently.”
(Dkt. 56, at 24). While the SAD claim that the
Provider Plaintiffs’ interests are not sufficiently
aligned with their regulated employees because the
employees “may not wish to have a federal court hold
that the [SAD] must administratively sanction them,”
the Provider Plaintiffs attached to their response
several declarations specifically detailing how their
employees’ interests are aligned with their own. (Dkt.

34a

63, at 10); (Dkt. 56, at 24) (Lambrecht Decl., Dkt. 195, at 8–9) (“Many staff members entered health care
because serving patients was their calling . . . . S.B. 8
will prevent PPGTSHS and our dedicated team of
medical professionals from fulfilling our mission.”);
(Miller Decl., Dkt. 19-7, at 6) (“Our physicians and
staff will have to choose between subjecting
themselves to these lawsuits or turning away the
majority of our patients, putting us in an impossible
situation.”).10 As such, the Court finds that the
Provider Plaintiffs’ interests are sufficiently aligned
with those of their employees so as to confer thirdparty standing. Campbell v. Louisiana, 523 U.S. 392,
397–98 (1998).
The SAD argue that the Provider Plaintiffs have
not demonstrated that their employees face a
“hindrance” to their ability to protect their own
interests because they have not alleged a First
Amendment injury on behalf of their employees. (Dkt.
10 See also Sadler Decl., Dkt. 19-11, at 6) (“The uncertainty
created by S.B. 8 has already had a significant impact on our
clinics. Our staff are worried that the clinics will be forced to close
and they will be out of a job.”); Kumar Decl., Dkt. 19-2, at 12 (“I
also worry about the impact that S.B. 8 will have on me as a
physician and on my colleagues, including PPCFC’s nurses and
other staff, without whom I could not provide abortion services
to our patients. As in other areas of medicine, these professionals
provide several essential aspects of the health care services we
provide. We already face harassment because of our jobs.”);
(Braid Decl., Dkt. 19-8, at 4) (“I am concerned not only about
liability for myself and the other physicians, but also Alamo and
HWRS and the staff at these clinics.”); (Rosenfeld Decl., Dkt. 199, at 3–4) (“[I]f we continue to perform abortions prohibited by
SB 8, the clinic and I, as well as all of the nurses, medical
assistants, receptionists, and other staff that assist with
providing, scheduling, billing, and/or counseling for abortion
care.”).

35a

63, at 9) (quoting Kowalski, 543 U.S. 130). The
Provider Plaintiffs have provided evidence of the
“multiple barriers” that impede their employees from
joining this litigation, as they face violence and
harassment due to the nature of their work, and as
such, do not want their names publicly identified in a
lawsuit, which may cause them to be “targeted in
costly and abusive S.B. 8 enforcement lawsuits.” (Dkt.
56, at 24–25) (citing Lambrecht Decl., Dkt. 19-5, at 8)
(“Our staff deal with never-ending harassment from
opponents of abortion. They pass through lines of
protestors, yelling at them (and at patients), just to do
their jobs.”); (Linton Decl., Dkt. 19-6, at 6–7) (“Even
staff who have no direct role in abortion services are
worried about being named in harassing lawsuits.”);
(see id.) (“Our staff already deal with relentless
harassment from abortion opponents, including
[opponents] trying to follow staff home . . . . As a result
of these threats, and the increasing volume of threats
and harassment to abortion providers more broadly—
and the increasing severity of threats (including
homicide)—we have had to expend more resources
ensuring our health centers and staff and patients
remain safe.”); (Baraza Decl., Dkt. 19-10, at 5–6) (“Our
staff are fearful that they will be sued and forced into
a Texas court far away from home to defend
themselves, and they are frightened that defending
these cases will financially ruin them and their
families . . . Staff endure endless harassment from
opponents of abortion . . . These protestors often video
record staff and patients as they enter and exit the
health centers, and we worry they are writing down
staff license plates and/or other identifying

36a

information.”).11 The significant risks of harassment
and S.B. 8 enforcement against the Provider
Plaintiffs’ employees supports a finding they are
hindered in their ability to bring claim on their own
behalf. See Campbell, 523 U.S. at 397–98 (third-party
standing existed where “common interest in
eliminating discrimination” and party named in
lawsuit had “an incentive to serve as an effective
advocate” for those not before the court).
The Court thus finds that the Provider Plaintiffs
have sufficiently demonstrated that they have a
“close” relationship with their employees for the
purposes of this lawsuit, and their employees are
hindered from bringing these claims themselves due
to the rampant harassment and violence they face
from anti-abortion opponents as abortion providers.
B. Judicial Defendants’ Motions to Dismiss
Defendants Jackson and Clarkston (together, the
“Judicial Defendants”) also move to dismiss Plaintiffs’
claims against them12 for lack of subject matter
jurisdiction. (Jackson Mot. Dismiss, Dkt. 49;
Clarkston Mot. Dismiss, Dkt. 51). Plaintiffs filed a
11 See also Planned Parenthood Se., Inc. v. Strange, 33 F.
Supp. 3d 1330, 1333 (M.D. Ala. 2014) (noting the “history of
severe violence against abortion providers in Alabama and the
surrounding region.”); Planned Parenthood of Wis., Inc. v. Van
Hollen, 94 F. Supp. 3d 949, 982–83 (W.D. Wis. 2015), aff’d sub
nom. Planned Parenthood of Wis., Inc. v. Schimel, 806 F.3d 908
(7th Cir. 2015) (“One of the most striking aspects of the trial was
[abortion provider] plaintiffs’ testimony about their personal
experiences with harassment and threats” from opponents of
abortion.).
12 Jackson notes that “all the arguments raised in this
Motion to Dismiss would apply with equal force to all the other
state judges across Texas.” (Dkt. 49, at 1).

37a

consolidated response to the Judicial Defendants’
motions to dismiss, (Dkt. 62), and the Judicial
Defendants filed replies, (Dkts. 66, 67).
The Court will analyze the Judicial Defendants’
motions to dismiss together as they are both members
of the state judicial system, and their arguments in
support of the motions to dismiss largely overlap. (See
Jackson Mot. Dismiss, Dkt. 49; Clarkston Mot
Dismiss, Dkt. 51). The Judicial Defendants first argue
that Plaintiffs’ claims against them are not cognizable
under Article III because there is no case or
controversy since the Judicial Defendants play an
adjudicatory role in S.B. ‘s enforcement. (Dkt. 49, at 5;
Dkt. 51, at 10) (arguing that there is no case or
controversy between Plaintiffs and Jackson because
he will only act in his “adjudicatory capacity if he
presides over a lawsuit brought under S.B. 8.”).
Second, the Judicial Defendants argue that Plaintiffs
lack standing to bring their claims. (Dkt. 49, at 5; Dkt.
51, at 13). Finally, the Judicial Defendants argue that
Plaintiffs’ claims against them are barred by
sovereign immunity. (Dkt. 49, at 6; Dkt. 51, at 22). To
the extent Defendant Dickson has offered arguments
in support of the Judicial Defendants’ motions to
dismiss in his own motion that were not raised in the
Judicial Defendants’ motions, (Dkt. 50, at 16–22), the
Court will address them here.
1. Case or controversy
The Judicial Defendants argue that Plaintiffs’
claims against them fail to satisfy Article III’s case or
controversy requirement because “[n]either Judge
Jackson nor Ms. Clarkston have a personal stake in
the outcome of S.B. 8 enforcement suits, neither of
them were involved in the statute’s enactment, and

38a

they are barred by state law from initiating S.B. 8’s
enforcement in their official capacity.” (Dkt. 51, at 11;
Dkt. 49, at 4). “The case or controversy requirement of
Article III of the Constitution requires a plaintiff to
show that he and the defendants have adverse legal
interests.” Bauer v. Texas, 341 F.3d 352, 359 (5th Cir.
2003).
The Judicial Defendants argue that their legal
interests are not adverse to those of Plaintiffs’ because
their role in S.B. 8 enforcement actions is purely
related to the adjudication of claims brought under the
law. (Dkt. 49, at 4); (Dkt. 51, at 11) (citing Bauer, 341
F.3d at 361) (“Section 1983 will not provide any
avenue for relief against judges ‘acting purely in their
adjudicative capacity, any more than, say, a typical
state’s libel law imposes liability on a postal carrier or
telephone company for simply conveying a libelous
message.’ ”); (Dickson Mot. Dismiss, Dkt. 50, at 16–
17).13 The Judicial Defendants further cite to
Chancery Clerk of Chickasaw County v. Wallace for
the proposition that because state judges and clerks
have no personal stake in the outcome of S.B. 8
enforcement actions, they lack the requisite adversity
to Plaintiffs, who as here, challenge the
constitutionality of a state statute. (Dkt. 51, at 11–12);
646 F.2d 151 (5th Cir. 1981). Plaintiffs respond that
because Judicial Defendants cannot open or resolve
S.B. 8 enforcement actions without violating
13 Clarkton likens herself to a “postal carrier,” arguing that
her docketing and issuing of a citation in any S.B. 8 case brought
in her district renders her even “less adverse” to Plaintiffs than
Jackson. (Dkt. 51, at 11). However, unlike a postal carrier, who
merely transmits a message, here Clarkston will exert coercive
power over defendants in S.B. 8 actions by issuing citations
against them. Tex. R. Civ. P. 99(a).

39a

Plaintiffs’ constitutional rights, the Judicial
Defendants have demonstrated their personal stake
in S.B. 8. (Dkt. 62, at 30–38). And because there are
no other governmental authorities tasked with
enforcement of S.B. 8, Plaintiffs have demonstrated
that their interests are sufficiently adverse to those of
the Judicial Defendants so as to present a “case or
controversy” under Article III. (Id.).
Initially, the Court notes that Plaintiffs have
likely demonstrated that their claims against the
Judicial Defendants satisfy Article III’s case or
controversy requirement because while Judicial
Defendants have indicated that they believe they
must accept and adjudicate private enforcement
actions brought under S.B. 8, Plaintiffs on the other
hand claim that any such action would violate their
constitutional rights. (Dkt. 62, at 30; Clarkston Mot.
Dismiss, Dkt. 51; Jackson Mot. Dismiss, Dkt. 49). See
Aetna Life Ins. Co. of Hartford v. Haworth, 300 U.S.
227, 242 (1937).14
Moreover, in contrast to the cases cited by the
Judicial Defendants, where the Fifth Circuit found
judges to be improper defendants in Section 1983
challenges to state statutes where other government
defendants were more properly named, here there are
no other government enforcers against whom
Plaintiffs may bring a federal suit regarding S.B. 8’s
14 While Jackson insists that this Court must assume that
he will “simply interpret and apply the law” in adjudicating cases
under S.B. 8, this assertion is belied by Jackson’s own statements
at an August 4, 2021 press conference indicating that he is not a
neutral arbiter because he is “one hundred percent committed to
seeing . . . the voice and vote of pro-life Texans defended”
regardless of “what some leftist judge down in Austin may do.”
(Aug. 4 Press Conf. Tr., Dkt. 53-1, at 4).

40a

constitutionality. While in Wallace and Bauer the
Fifth Circuit found that state judges were not the
proper defendants because other state officials were
more appropriately named as defendants due to their
enforcement activities, here S.B. 8 forecloses
Plaintiffs’ ability to name anyone in the State’s
legislature or executive branch in this challenge.15
Bauer, 341 F.3d at 359 (“Our decision today does not
foreclose Bauer or others from directly challenging the
constitutionality of Texas’s guardianship statutes, as
it does not reach the question of whether these
statutes are constitutional.”); Wallace, 646 F.2d 151
(allowing plaintiffs to “substitute the proper public
officials as defendants” where class of state judges and
clerks did not have “the requisite personal stake in
defending the state’s interests” in Section 1983 suit
challenging state civil commitment procedures).
Furthermore, courts have acknowledged that
state judges may be proper defendants in
constitutional challenges to state statutes where, as
here, it is not possible to enjoin any “other parties with
the authority to seek relief under the statute.” In re
Justices of the Supreme Court of Puerto Rico, 695 F.2d
17 (1st Cir. 1982). Here, the naming of the Judicial
Defendants is “necessary” for Plaintiffs to seek “full
15 State Senator Bryan Hughes, a legislative sponsor of S.B.
8 has admitted that the legislature deliberately crafted S.B. 8 to
not “require any action by the district attorney, by the state, or
any government actor.” (Aug. 4 Press Conf. Tr, Dkt. 53-1, at 5).
Similarly, Defendant Dickson has noted that S.B. 8 is “very
clever” because, like the recent Lubbock, Texas ordinance
banning abortions, “[t]here’s no way for a court to hear the
validity of this law until someone actually brings a civil lawsuit”
since “the government can’t enforce this law.” (Dickson May 5,
2021 Facebook Post, Dkt. 57-1, at 3).

41a

relief” for the alleged violations of their constitutional
rights that will occur if the Judicial Defendants use
their authority to force Plaintiffs to participate in S.B.
8 enforcement actions. Id. at 23; see also Mitchum, 407
U.S. at 242 (“[F]ederal injunctive relief against a state
court proceeding can in some circumstances be
essential to prevent great, immediate, and irreparable
loss of a person’s constitutional rights.”).
Recognizing that their arguments would
essentially prohibit Plaintiffs from naming any state
official in a federal lawsuit challenging the
constitutionality of a state statute structured like S.B.
8, the Judicial Defendants suggest that Plaintiffs
should instead wait to be sued in state court, and then
raise the defenses available to them under S.B. 8 in
such an enforcement action. (Dkt. 51, at 12). This
argument sidesteps the fact that if this Court were to
dismiss the Judicial Defendants for lack of a case or
controversy, Plaintiffs would have no avenue to
challenge the constitutionality of S.B. 8 outside of an
enforcement action brought against them under S.B.
8—an action Plaintiffs allege would violate their
constitutional rights in the first place. (Dkt. 62, at 38).
Even within an enforcement action, Plaintiffs’ ability
to raise the defense that the law is unconstitutional is
severely limited under S.B. 8’s private enforcement
mechanism. Tex. Health & Safety Code §§
171.208(e)(2), (3), 171.209(b).16

16 “Notwithstanding any other law, the following are not a
defense to [a S.B. 8 enforcement action] . . . a defendant’s belief
that the requirements of this subchapter are unconstitutional or
were unconstitutional . . . a defendant’s reliance on any court
decision that has been overruled on appeal or by a subsequent
court, even if that court decision had not been overruled when

42a

Although the Judicial Defendants are correct that
state courts can consider constitutional issues, the
Court finds troubling the Judicial Defendants’
suggestion that Plaintiffs should only be allowed to
challenge S.B. 8 through the “defenses available to
them under the [same] statute” when Plaintiffs’ claim
is that S.B. 8 cannot be enforced against them at all
without violating the Constitution. (Dkt. 51, at 12).
Because there are no other state officials against
whom Plaintiffs might seek relief in federal court for
S.B. 8’s alleged constitutional violations and state
judicial defendants may be properly named in federal
suits seeking equitable relief to vindicate federal
constitutional rights, the Court finds that the Judicial
Defendants are sufficiently adverse to Plaintiffs in
S.B. 8 actions to bring this action within Article III’s
case or controvert requirement.17
the defendant engaged in conduct that violates this subchapter.”
Tex. Health & Safety Code §§ 171.208(e)(2), (3).
17 See, e.g., WXYZ, Inc. v. Hand, 658 F.2d 420, 427 (6th Cir.
1981) (affirming issuance of permanent injunction against
Michigan state court judge who was required by statute to issue
a suppression order in a criminal proceeding that barred media
from publishing the defendant’s identity); Caliste v. Cantrell,
Civ. No. 17-6197, 2017 WL 6344152, at *3 (E.D. La. Dec. 12,
2017) (awarding declaratory relief and later entering a consent
decree against a magistrate judge of Orleans Parish who under
Louisiana state law received a set percentage of any bond
amount collected from a for-profit surety for the court’s
discretionary use and who had an active role in setting bail and
managing generated funds), aff’d, 937 F.3d 525 (5th Cir. 2019);
Strawser v. Strange, 100 F. Supp. 3d 1276 (S.D. Ala. 2015)
(awarding declaratory and injunctive relief against a defendant
class of Alabama probate judges who were directed by Alabama
law to refuse to issue marriage licenses to same-sex couples or
recognize their out-of-state marriages); Tesmer v. Granholm, 114
F. Supp. 2d 603, 616–18, 622 (E.D. Mich. 2000) (awarding

43a

Furthermore, the Court finds that the Judicial
Defendants play an enforcement role in S.B. 8 and
thus are not immune from suit under Bauer, which
only applies where judges act “purely in their
adjudicative capacity.” 341 F.3d at 361. Here, in
contrast, the Judicial Defendants are “not immune
from suits for declaratory or injunctive relief” because
S.B. 8 empowers the Judicial Defendants to take on
an enforcement role in the law’s application. LeClerc
v. Webb, 419 F.3d 405, 414 (5th Cir. 2005). Not only
are the Judicial Defendants the only state officials
tasked with directly enforcing S.B. 8 against
Plaintiffs, but Jackson has even publicly stating that
he is one of “the judges who enforce [S.B. 8] in east
Texas.” (Aug. 4 Press Conf. Tr, Dkt. 53-1, at 4).
Jackson’s statement regarding the enforcement power
state courts wield under S.B. 8, coupled with the
provisions of S.B. 8 that so obviously skew in favor of
claimants, bring this case outside the scope of cases

declaratory relief initially, and injunctive relief subsequently,
against a defendant class of state court judges who were directed
by a state statute to deny appellate counsel to indigent criminal
defendants who plead guilty), aff’d in part and rev’d in part on
other grounds, 333 F.3d 683 (6th Cir. 2003) (en banc), rev’d on
other grounds sub nom Kowalski v. Tesmer, 543 U.S. 125 (2004);
Kendall v. True, 391 F. Supp. 413, 420 (W.D. Ky. 1975) (awarding
declaratory and injunctive relief against a class of county circuit
court judges who oversaw civil commitment proceedings
pursuant to procedures set forth by Kentucky law); Blick v.
Dudley, 356 F. Supp. 945, 953–54 (S.D.N.Y. 1973) (awarding
injunctive relief against Administrative Judge and Chief Clerk of
New York criminal court requiring expungement of all records of
plaintiffs’ unconstitutional arrests because only the clerks could
expunge the records).

44a

where the Fifth Circuit has found that state judicial
officers acted purely in their adjudicatory roles.
For example, while the Bauer court found that
judges played a purely adjudicatory role in the statute
at issue in part because of the “safeguards” built into
the statute before a guardianship could be imposed,
here S.B. 8 contains no such “safeguards” for
defendants in S.B. 8 enforcement actions. 341 F.3d
361. In fact, S.B 8 does just the opposite by purporting
to dictate how state courts hear S.B. 8 enforcement
actions, including by eliminating non-mutual issue
preclusion and claim preclusion, modifying federal
constitutional defenses, and prohibiting state courts’
ability to rely on non-binding precedent or even assess
whether a claimant has been injured18 by a violation
of S.B. 8. See S.B. 8 § 5 (to be codified at Tex. Gov.
Code § 311.036); Tex. Health & Safety Code §§
171.209(c), (d)(2)). Because Jackson has declared his
enforcement authority under S.B. 8 and the Judicial
Defendants play a role in S.B. 8 cases that is more
than purely adjudicatory, S.B. 8 renders the Judicial
Defendants judicial enforcers of S.B. 8 rather than
neutral adjudicators. Id.; see, e.g., S.B. 8 § 171.211.
Here, Plaintiffs have alleged that the Judicial
Defendants’ interests are sufficiently adverse to their
own so as to satisfy the case of controversy
requirement under Article III.

18 The Court finds it somewhat ironic that Judicial
Defendants argue that Plaintiffs cannot show injury-in-fact to
support standing to challenge S.B. 8, a law that purports to
remove such a requirement from private enforcement
proceedings brought under the law.

45a

2. Sovereign Immunity
The Judicial Defendants next argue that
Plaintiffs’ claims against them are barred by
sovereign immunity. (Dkt. 49, at 6–8; Dkt. 50, at 17;
Dkt. 51, at 22).19 Jackson contends that while Ex Parte
Young allows for equitable causes of action to be
brought
against
state
officials
who
act
unconstitutionally, “this authority does not include
the power to enjoin state courts.” (Dkt. 49, at 7) (citing
Ex Parte Young, 209 U.S. at 163.). Even if injunctive
relief were available against state courts, Jackson
argues that the lack of sufficient statutory
enforcement authority under S.B. 8 excludes him from
the Ex Parte Young exception. (Id. at 8) (citing City of
Austin v. Paxton, 943 F.3d 993, 1000 (5th Cir. 2019)).
Dickson further contends that the Judicial
Defendants cannot be sued under Ex Parte Young
because they have no intent to violate federal law by
merely “waiting to see if someone files a lawsuit under
Senate Bill 8.” (Dkt. 50, at 18). Instead, Dickson
argues that Jackson could only be sued under Ex Parte
Young once he hears an enforcement action under S.B.
8 and “enters an actual ruling that violates someone’s
federally protected rights.” (Dkt. 50, at 19).
Plaintiffs respond that the Judicial Defendants
are not entitled to sovereign immunity because they
are sued in their official capacities to prevent future
actions to enforce an allegedly unconstitutional law.
19 Clarkston argues that she is also entitled to sovereign
immunity by adopting the arguments of her co-Defendants
without further elaboration. (Dkt. 51, at 22) (“Ms. Clarkston is
entitled to sovereign immunity for the same reasons as Judge
Jackson, and Judge Jackson’s and Defendant Mark Lee
Dickson’s arguments as to sovereign immunity are incorporated
herein.”).

46a

(Dkt. 62, at 28) (citing Green Valley Special Util. Dist.
v. City of Schertz, 969 F.3d 460, 472–73 & n.22 (5th
Cir. 2020); Warnock v. Pecos Cnty., 88 F.3d 341, 343
(5th Cir. 1996) (claims against Texas judges seeking
prospective relief against violations of federal law are
not barred by sovereign immunity). Indeed, as noted
above, forcing Plaintiffs to wait until a state
enforcement action is brought against them to raise
their constitutional concerns would leave Plaintiffs
without the ability to vindicate their constitutional
rights in federal court before any constitutional
violation occurs. Supreme Ct. of Virginia v. Consumers
Union of U.S., Inc., 446 U.S. 719, 737 (1980)
(reasoning that state court and chief justice were
proper defendants in Section 1983 challenge to state’s
disciplinary rules because otherwise “putative
plaintiffs would have to await the institution of statecourt proceedings against them in order to assert their
federal constitutional claims.”).
Plaintiffs further point out that under more recent
precedent than that cited by Judicial Defendants, the
Fifth Circuit has found that the availability of relief
under Ex Parte Young, which “allows plaintiff[s] to sue
a state official, in his official capacity, in seeking to
enjoin enforcement of a state law that conflicts with
federal law,” may apply to Section 1983 challenges
against state judicial actors who play a role in
enforcing state statutes, even through ministerial
duties. (Dkt. 62, at 42–43) (citing Air Evac EMS, 851
F.3d at 515; Idaho v. Coeur d’Alene Tribe of Idaho, 521
U.S. 261, 281 (1997); Green Valley, 969 F.3d at 473
n.22; Finberg, 634 F.2d at 54 (“[C]ourts often have
allowed suits to enjoin the performance of ministerial
duties in connection with allegedly unconstitutional

47a

laws.”); Supreme Ct. of Virginia v. Consumers Union
of U. S., Inc., 446 U.S. 719, 735.
For example, in Supreme Ct. of Virginia, a
Virginia court and its chief justice were found to not
be immune from claims brought under Section 1983
because of the court’s “own inherent and statutory
enforcement powers” with regard to state bar
disciplinary rules. 446 U.S. 719, 735. In fact, Section
1983 was designed to allow individuals to challenge
unconstitutional actions by members of state
government, whether they be part of the “executive,
legislative, or judicial” branches of that state
government. Mitchum, 407 U.S. at 242 (emphasis
added) (quoting Ex parte Virginia, 100 U.S. at 346). In
1996, Congress even amended Section 1983 to make
clear that an action brought seeking declaratory relief
may be “brought against a judicial officer for an act or
omission taken in such officer’s judicial capacity,” and
injunctive relief may be brought against a judicial
officer who violates a declaratory decree or against
whom declaratory relief is not available. 42 U.S.C. §
1983; see also Pulliam v. Allen, 466 U.S. 522, 540
(1984) (noting that Congress enacted Section 1983 in
part because “state courts were being used to harass
and injure individuals, either because the state courts
were powerless to stop deprivations or were in league
with those who were bent upon abrogation of federally
protected rights.”).
Here, as noted above, the Judicial Defendants’
enforcement role in S.B. 8’s private enforcement
mechanism brings them within the carveouts courts
have created to allow Section 1983 challenges to laws
to proceed against state court officials under the Ex
Parte Young exception to sovereign immunity.

48a

Plaintiffs’ claims are thus not barred by sovereign
immunity.
3. Standing
The Judicial Defendants next challenge Plaintiffs’
standing to bring their claims, arguing that Plaintiffs
have failed to meet the standing requirements of
injury-in-fact, traceability, and redressability. While
the Judicial Defendants argue that Plaintiffs have
failed to meet any of these standing requirements,
(Dkt. 49, at 5–6; Dkt. 51, at 13), Plaintiffs contend that
they have met all standing criteria as to their claims
against the Judicial Defendants. (Dkt. 62, at 16).
a. Injury-in-fact
The Judicial Defendants first argue that Plaintiffs
cannot show an impending injury-in-fact because
there is no immediate threat of enforcement actions.
(Dkt. 51, at 14). The Judicial Defendants emphasize
that there “are no currently pending actions under
S.B. 8,” and of course, there could not be since the law
does not take effect until September 1. (Dkt. 51, at 14–
15). Dickson once again argues that since Plaintiffs
have not specifically alleged that they plan to violate
S.B. 8 or identified who would bring an enforcement
action against them for such a violation apart from
Dickson, their threatened injury constitutes “rank
speculation.” (Dkt. 50, at 20–21). However, as
explained above, there need not be a pending
enforcement action against Plaintiffs to confer
Plaintiffs standing over claims alleging imminent
constitutional harm once S.B. 8 takes effect. See
Section A(2)(a); See, e.g., Babbitt, 442 U.S. 289, 298;
Susan B. Anthony List, 573 U.S. at 158. Furthermore,
contrary to Defendant Dickson’s contention that
Plaintiffs must specifically allege that they intend to

49a

violate S.B. 8, such as admission is not in fact required
to demonstrate an injury-in-fact for standing
purposes. SBA List, 573 U.S. at 163; MedImmune, 549
U.S. at 129.
Even if required to allege an intent to violate S.B.
8, Plaintiffs have stated that they provide abortions
that would violate the six-week ban and “desire to
continue to” provide the medical care and other forms
of support banned by S.B. 8. (Compl., Dkt. 1, at 9–12,
32). As such, Plaintiffs argue, the threat of lawsuits
stemming from enforcement actions brought by
private citizens in Judicial Defendants’ courts is an
injury-in-fact sufficient to confer Article III standing.
(Dkt. 62, at 17); K.P. v. LeBlanc (“K.P. I”), 627 F.3d
115, 123 (5th Cir. 2010) (injury established where
“probability of future suits” meant it was “sufficiently
likely that the physicians will face liability for
abortion-related procedures.”). Indeed, the threat of
enforcement actions is not “imaginary or wholly
speculative” given that S.B. 8 specifically targets
Plaintiffs by making their primary activities subject
to enforcement actions before Judicial Defendants.
(Dkt. 62, at 17); SBA List, 573 U.S. at 160 (quoting
Babbitt, 442 U.S. at 302). In addition, Plaintiffs
contend that having to defend themselves in S.B. 8
enforcement actions is an injury in and of itself. (Dkt.
62, at 6–8, 18).
In response to Dickson’s suggestion that Plaintiffs
alleged injuries are speculative because they have not
identified who will bring enforcement actions,
Plaintiffs identify the Texas Right to Life’s statement
that it is actively “encouraging individuals to sue
abortion providers and abortion funds.” (Dkt. 62, at
18) (citing Seago Decl., Dkt. 50-2, at 1). Furthermore,

50a

Plaintiffs note that last year Dickson’s own counsel
filed eight lawsuits20 in just one day against some of
the Plaintiffs in this lawsuit in counties across Texas,
including Smith County where the Judicial
Defendants are located—suggesting that it is far from
speculative to assume that those intending to file S.B.
8 actions will do so in as many Texas counties as
possible. (Dkt. 62, at 18–19).
The fact that S.B. 8 empowers “any person” to
initiate enforcement actions bolsters the credibility of
Plaintiffs’ alleged harm as those who are politically
opposed to Plaintiffs are empowered to sue them for
substantial monetary gain. (Dkt. 62, at 19) (citing
Susan B. Anthony List, 573 U.S. at 156). Indeed, S.B.
8 incentivizes anti-abortion advocates to bring as
many lawsuits against Plaintiffs as possible by
awarding private enforcers of the law $10,000 per
banned abortion. Tex. Health & Safety Code §
171.208(b). Furthermore, Defendants themselves
have confirmed the immediacy of the threat of S.B. 8
enforcement actions in state courts. (Seago Decl., Dkt.
20 Blackwell v. The Lilith Fund for Reprod. Equity, No. 2020147 (Tex. Dist. Ct. Rusk Cnty., filed July 16, 2020); Byrn v. The
Lilith Fund for Reprod. Equity, No. 12184-D (Tex. Dist. Ct.
Taylor Cnty., filed July 16, 2020); Enge v. The Lilith Fund for
Reprod. Equity, No. 20-1581-C (Tex. Dist. Ct. Smith Cnty., filed
July 16, 2020); Gentry v. The Lilith Fund for Reprod. Equity, No.
CV2045746 (Tex. Dist. Ct. Eastland Cnty., filed July 17, 2020);
Maxwell v. The Lilith Fund for Reprod. Equity, No. C 2020135
(Tex. Dist. Ct. Hood Cnty., filed July 16, 2020); Moore v. The
Lilith Fund for Reprod. Equity, No. 2020-216 (Tex. Dist. Ct.
Panola Cnty., filed July 16, 2020); Morris v. The Lilith Fund for
Reprod. Equity, No. 200726270 (Tex. Dist. Ct. Hockley Cnty.,
filed July 16, 2020); Stephens v. The Lilith Fund for Reprod.
Equity, No. 12678 (Tex. Dist. Ct. Franklin Cnty., filed July 16,
2020.

51a

50-2, at 1) (“I have personal knowledge that there are
several individuals who intend to sue the abortionprovider plaintiffs and the abortion-fund plaintiffs if
they defy Senate Bill 8.”); Dickson Decl., Dkt. 50-1, at
2–3) (“I have personal knowledge that there are many
other individuals who intend to sue the abortionprovider plaintiffs and the abortion-fund plaintiffs if
they defy Senate Bill 8 . . . ”). Given that Plaintiffs
have demonstrated that the threat of enforcement
actions under S.B. 8 is credible and imminent, the
Court finds that they have sufficiently demonstrated
an injury-in-fact for the purposes of establishing
standing to bring their claims against the Judicial
Defendants.
b. Causation
The Judicial Defendants next argue that Plaintiffs
lack standing because they cannot show that their
alleged injuries are traceable to Judicial Defendants
since S.B. 8 specifically empowers private citizens,
rather than any member of the State, to enforce its
provisions. (Dkt. 51, at 16–18). Clarkston cites to
Okpalobi v. Foster, 244 F.3d 405, 426–27 (5th Cir.
2001) (en banc), and K.P. v. LeBlanc (“K. P. II”), 729
F.3d 427, 437 (5th Cir. 2013), for the proposition that
any injury to Plaintiffs caused by S.B. 8 enforcement
actions is not fairly traceable to the Judicial
Defendants because S.B. 8 statutorily tasks private
citizens, rather than state officials, to enforce the sixweek ban and fee-shifting provisions. (Dkt. 51, at 17–
22; Dkt. 50, at 21–22). Jackson argues that Plaintiffs’
injuries are likewise not traceable to him since he has
no authority to prevent a private plaintiff from
bringing a cause of action under S.B. 8. (Dkt. 49, at 6).
Dickson echoes the Judicial Defendants’ arguments

52a

regarding causation, arguing that since he is “legally
incapable” of bringing an enforcement action in Smith
County since he is not a resident there, Plaintiffs’
alleged injuries are only “fairly traceable” to
independent actors not before the Court. (Dkt. 50, at
21–22).
Plaintiffs respond that their impending injuries
are in fact traceable to the Judicial Defendants
because although only private parties may initiate the
civil enforcement actions, the Judicial Defendants
actions will exert coercive authority over Plaintiffs by
“forcing them into unconstitutional enforcement
actions” that “will drain Plaintiffs’ resources and
potentially force them to close their doors, regardless
of whether the enforcement actions are ultimately
successful.” (Dkt. 62, at 22–23; Compl., Dkt. 1, at 32,
35); see also Strickland v. Alexander, 772 F.3d 876,
885–86 (11th Cir. 2014) (injury imposed on plaintiff
through garnishment proceeding fairly traceable to
court clerk who performed “ministerial” duties in
“docketing the garnishment affidavit [and] issuing the
summons of garnishment”); De Leon v. Perry, 975 F.
Supp. 2d 632, 646 (W.D. Tex. 2014).
Plaintiffs further point out that absent relief from
this Court, the Judicial Defendants will take coercive
actions to enforce S.B. 8 against them when private
civil suits are filed in their courts. (Dkt. 62, at 22–23).
For example, Defendant Clarkston has stated that she
will docket cases and issue citations filed under S.B. 8
as is required by her under state law. (Dkt. 62, at 22)
(citing Tex. R. Civ. P. 99(a) (“Upon the filing of the
petition, the clerk . . . shall forthwith issue a
citation[.]”). Similarly, the proposed defendant class of
judges are charged with imposing sanctions under

53a

S.B. 8 that include injunctive relief and monetary
penalties, which Plaintiffs similarly argue are
coercive enforcement actions by the State that will at
least in part cause Plaintiffs’ alleged injuries. (Dkt. 62,
at 23) (citing S.B. 8 § 171.208(b) (judges in
enforcement proceedings “shall award” “injunctive
relief sufficient to prevent” future violations, as well
as monetary penalties of “not less than $10,000 for
each abortion” performed in violation of S.B. 8 and
“costs and attorney’s fees.”).
Plaintiffs also contend that the involvement of
private parties in the enforcement of S.B. 8 does not
negate the role the Judicial Defendants will play in
causing Plaintiffs’ forecasted injuries because the
Judicial Defendants’ “state-law duty to act on
enforcement petitions submitted to them makes them
part of the injurious causal chain.” (Dkt. 62, at 23)
(citing K.P. I, 627 F.3d at 122–23; Okpalobi, 244 F.3d
at 426). Indeed, while only private individuals can file
enforcement actions under S.B. 8, it is only the
Judicial Defendants who will exercise their coercive
power on behalf of the State to force Plaintiffs to
participate in lawsuits they believe to be
unconstitutional. (Dkt. 62, at 24) (citing Strickland,
772 F.3d at 886). The Judicial Defendants need not be
the sole cause of Plaintiffs’ alleged injuries nor do they
need to be involved in every step of the causal chain to
properly establish causation. Instead, Judicial
Defendants need only be “among those who would
contribute to Plaintiffs’ harm,” and here the alleged
harms to Plaintiffs could not occur absent the clerks’
involvement. K.P. I., 627 F.3d at 123; Durham v.
Martin, 905 F.3d 432, 434 (6th Cir. 2018) (“Even if the
administrators were only implementing the
consequences of others’ actions—that is, [plaintiff]’s

54a

expulsion by the legislature—[plaintiff] still has
standing to sue the administrators for their actions in
carrying out those consequences.”); Strickland, 772
F.3d 886. Here, the Judicial Defendants are integral
in executing S.B. 8 enforcement measures by coercing
Plaintiffs to participate in such suits and issuing relief
against those who violate S.B. 8. (Dkt. 62, at 24).
Indeed, the Judicial Defendants may be one of many
individuals who may cause harm to Plaintiffs through
S.B. 8, but that does negate their role in causing the
injuries Plaintiffs have alleged. Mitchum v. Foster,
407 U.S. 225, 242 (1972) (federal actions against state
judges are particularly appropriate where risk of
“great, immediate, and irreparable loss of a person’s
constitutional rights.”).
Because Plaintiffs have alleged that Judicial
Defendants will contribute to their injuries by
exercising coercive power over them in S.B. 8’s private
enforcement suits, Plaintiffs have sufficiently alleged
that their injuries are traceable to Judicial
Defendants so as to support a finding of standing.
c. Redressability
The Judicial Defendants further argue that any
declaratory relief issued by this Court would not
redress the harm to Plaintiffs because they do not
have the power to reject or refuse to adjudicate
lawsuits. (Dkt. 51, at 21). Clarkston suggests that any
order from this Court requiring her to decline to
docket cases brought under S.B. 8 would require her
to “exceed her responsibilities as an elected official
under state law” to “evaluate the legal basis for every
single case filed in Smith County.” (Dkt. 51, at 20).
Because Clarkston is charged under state law with
filing any lawsuit initiated in Smith County, she

55a

argues that any order from this Court declaring S.B.
8 unenforceable in state courts would force her to
violate state law and threaten the principles of
federalism. (Dkt. 51, at 20–21).
Plaintiffs respond that their injuries are in fact
redressable by an order from this Court enjoining the
Judicial Defendants from initiating or adjudicating
private enforcement actions under S.B. 8. (Dkt. 62, at
26). For example, Plaintiffs argue that an order
enjoining the proposed class of clerks from docketing
or issuing citations for any petitions for enforcement
brought under S.B. 8 would help redress Plaintiffs’
injuries by preventing them from being forced to
participate in a state court proceeding initiated under
an allegedly unconstitutional law. (Dkt. 62, at 26).21
In addition, Plaintiffs argue that an order declaring
S.B. 8 unconstitutional would deter private parties
from bringing enforcement actions under the law in
the first place and would presumably preclude
Judicial Defendants from adjudicating lawsuits under
a law declared unconstitutional. (Dkt. 62, at 27).
Indeed, in Roe v. Wade, the Supreme Court issued only
declaratory relief under the assumption that “Texas
prosecutorial authorities will give full credence to this
decision that the present criminal abortion statutes of
that State are unconstitutional.” 410 U.S. 113, 166
(1973). The Court assumes any declaratory relief
issued in this case would have the same impact on
Judicial Defendants here.
Clarkston asserts that this Court cannot redress
Plaintiffs’ alleged harm because any injunction would
force her to violate her state law duty to docket cases
filed in her county. (Dkt. 51, at 19–20). Yet Clarkston’s
state law duty to docket petitions and issue citations

56a

cannot trump her duty to act according to the
Constitution, and in any event, an order from this
Court would require her to “do nothing more than
uphold federal law.” Air Evac EMS, 851 F.3d at 516.
To the extent her duty to act in accordance with the
U.S. Constitution conflicts with her duties to docket
petitions and issue citations under state law, her state
law duties must yield to federal law. Aldridge v.
Mississippi Dep’t of Corr., 990 F.3d 868, 874 (5th Cir.
2021) (“[A]ny state law, however clearly within a
State’s acknowledged power, which interferes with or
is contrary to federal law, must yield.”) (internal
citations removed). Contrary to Clarkston’s position
that upholding the Constitution would present a
federalism issue, state officials are never absolved
from violating the Constitution merely because their
state-mandated duties require them to act in an
unconstitutional manner. Nashville Cmty. Bail Fund
v. Gentry, 446 F. Supp. 3d 282, 301 (M.D. Tenn. 2020).
The Court further rejects Clarkston’s argument that
she is incapable as a non-lawyer of identifying
petitions brought under S.B. 8—even if she were
incapable of reading a petition to identify whether it
was brought under S.B. 8, she may obtain guidance
from the state attorney general with regard to how to
implement any injunction from this Court. See
Campaign for S. Equal. v. Bryant, 197 F. Supp. 3d
905, 909 (S.D. Miss. 2016).
Clarkston relies on Okpalobi to support her
argument that Plaintiffs do not have standing to sue
public officials in challenges to laws that create
private rights of actions against abortion providers.
244 F.3d at 426–27. In Okpalobi, the Fifth Circuit
found that there was no “case or controversy” between
the plaintiff abortion providers and the Louisiana

57a

government and attorney general in a suit challenging
the constitutionality of a statute creating tort liability
against physicians who provide abortions because the
governor and attorney general played no role in the
private tort lawsuits. 244 F.3d at 409, 429. Clarkston
also relies on K.P. II, where the Fifth Circuit held that
the same abortion providers could not challenge the
same law by suing members of the oversight board
that reviewed patient tort claims to determine
whether they would be covered by a medicalmalpractice fund because the board was not charged
with enforcing the tort actions. 729 F.3d at 437. Here,
in contrast, the Judicial Defendants are involved in
the S.B. 8 private enforcement actions in a way that
none of the defendants in Okapalobi and K.P. II were
so as to support causation for the purposes of
standing, and the absence of other appropriate state
official defendants means the Judicial Defendants are
the only state officials against whom relief from this
Court might redress Plaintiffs’ alleged injuries.
In addition, Plaintiffs point out that in K.P. I, the
Fifth Circuit found that abortion providers had
standing to sue members of an oversight board in a
challenge against the same tort liability provisions
because under the statute the board could deny
plaintiffs state-sponsored medical malpractice
coverage. 627 F.3d 115 (5th Cir. 2010). The Fifth
Circuit found that causation was satisfied because the
board members, although unable to bring tort claims
under the Louisiana law, had the “authority to
disburse or withhold the benefits associated with
Fund membership.” Id. Here, Judicial Defendants
“wield influence at multiple points in the”
enforcement of S.B. 8, and declaratory relief defining
their constitutional obligations with respect to

58a

Plaintiffs would serve to redress Plaintiffs’ alleged
harm. Air Evac, 851 F.3d at 515–6. Accordingly,
Plaintiffs have established the requisite causal
connection between their alleged harm and the
Judicial Defendants because the Judicial Defendants
have coercive power over Plaintiffs in S.B. 8
enforcement actions.
Furthermore, the Court once again notes that the
Fifth Circuit has never stated that there is no proper
defendant in challenges to anti-abortion laws that
create private rights of action, but rather that the
defendants named in previous lawsuits were not
properly named due to their lack of enforcement
power. See K.P. I, 627 F.3d at 124; Wallace, 646 F.2d
160. The Court thus does not read these cases to say
that Plaintiffs cannot name any state official
whatsoever in their suit, as suggested by the Judicial
Defendants here. Such a finding would countenance
any stratagem to relegate enforcement of state laws to
judges so as to avoid federal court review of
unconstitutional state statutes. As such, absent
guidance from the Fifth Circuit or the State regarding
who would be the proper government defendant in a
lawsuit challenging the constitutionality of a state
statute primarily enforced through a private actors,
the Court must find that the Judicial Defendants are
the proper defendants here. To find otherwise would
be to tell Plaintiffs that there is no state official
against whom they may bring a challenge in federal
court to vindicate their constitutional rights.
d. Prudential Standing
Clarkston further argues that even if Plaintiffs
have demonstrated the three elements of standing,
Plaintiffs’ request for declaratory relief against the

59a

Judicial Defendants would be improper for
“prudential standing considerations” because any
such relief would “impermissibly monitor the
operation of state court functions.” (Dkt. 51, at 15–16)
(citing Bauer, 341 F.3d at 358). However, rather than
serve to “monitor” the operation of state courts, any
order from this Court would serve to clarify the
Judicial Defendants’ constitutional duties with regard
to S.B. 8 and avoid violating Plaintiffs’ constitutional
rights through their adjudication of enforcement
actions under S.B. 8.
Plaintiffs rightly argue that all state statutes
must be enforced through some form of State coercion,
whether through “its legislative, its executive, or its
judicial authorities.” (Dkt. 62, at 11) (citing Shelley v.
Kraemer, 334 U.S. 1, 14 (quoting Ex parte Virginia,
100 U.S. 339, 347 (1880)). Because the State has
crafted S.B. 8 in such a way as to purposefully avoid
enforcement by the legislative or executive branches
of the government, the only State authority able to
enforce the law are members of the proposed classes
of Judicial Defendants who “exert their official power
to open the actions in the docket and issue citations
compelling those sued under S.B. 8 to respond to the
lawsuit” or “exert the compulsive power of the state to
force those sued under S.B. 8 to comply with the
statute through an injunction and other penalties.”
(Dkt. 62, at 12) (citing S.B. 8 § 171.208(a)–(b)). As
such, Plaintiffs argue that the proposed classes of
Judicial Defendants are “the lone government officials
responsible for directly coercing compliance with S.B.
8” and thus are the proper State defendants in this
action. (Dkt. 62, at 12).

60a

The Court agrees that absent further instruction from
the State or the Fifth Circuit regarding who would be
the proper the defendant in this pre-enforcement suit
for equitable relief, the Court finds that Supreme
Court precedent dictates that the Judicial Defendants
are the proper defendants. Shelley v. Kraemer, 334
U.S. 1. Indeed, the Judicial Defendants are the only
members of the State immediately connected with the
enforcement of S.B. 8 and an order from this Court
precluding them from instituting or adjudicating
private enforcement actions under S.B. 8 would serve
the redress Plaintiffs’ alleged harm. Indeed, the
correct answer cannot be that “there is no one [from
the State] who can be sued to block enforcement” of
S.B. 8 merely because the law was drafted to avoid
federal review of its constitutionality. (Dkt. 62, at 14).
C. Dickson Motion to Dismiss
Dickson similarly moves to dismiss Plaintiffs’
claims against him because S.B. 8’s severability
provision requires Plaintiffs to establish standing as
to every provision of S.B. 8 and that, in any event,
Plaintiffs have failed to meet show an injury-in-fact
traceable to him under S.B. 8’s private enforcement
mechanism. (See Dickson Mot. Dismiss, Dkt. 50).
Plaintiffs filed a response, (Dkt. 57), and Dickson filed
a reply. (Dkt. 64).
1. Severability
Dickson argues that because S.B. 8 contains
severability provisions, Plaintiffs must allege an
injury with regard to each provision of the law to
establish standing over their claims against him.
(Dkt. 50, at 7–10) (citing Senate Bill 8, 87th Leg., §§ 3,
5, 10)). Because certain provisions of S.B. 8 are not
enforced by private citizens, Dickson’s argument goes,

61a

Plaintiffs lack standing to challenge those provisions
as against him. (Dkt. 50, at 9). According to Dickson,
Plaintiffs only have standing in connection with
Sections 3 and 4 of S.B. 8, which empower private
citizens to bring lawsuits and recover attorney’s fees
against those who participate in abortions the law
purports to ban. (Id.) (“Only sections 3 and 4 of the
statute can be “enforced” by private citizens such as
Mr. Dickson in civil litigation—and those are the only
provisions in Senate Bill 8 that the plaintiffs can
conceivably challenge in a lawsuit against Mr.
Dickson.”).
Yet as Plaintiffs point out, the issue of
“severability is a question of remedy, [to be]
considered only after a legal violation has been
established on the merits.” (Dkt. 57, at 24) (citing
Ayotte v. Planned Parenthood of N. New England, 546
U.S. 320, 328–29 (2006)). Despite his insistence that
Plaintiffs cannot have standing with regard to each
provision they challenge “unless it applies the
statute’s severability requirements,” Dickson cites to
authority stating that severability and standing are
not to be analyzed together. (Dkt. 50, at 8) (citing In
re Gee, 941 F.3d 153, 160 (5th Cir. 2019). Indeed, in
Gee, the Court assessed standing and severability
separately, stating that “[s]everability obviously
governs the remedy after the finding of a
constitutional violation; it plays no part in finding a
constitutional violation.” Gee, 941 F.3d at 173; see also
Ayotte v. Planned Parenthood of N. New England, 546
U.S. at 328–29.
To the extent Dickson argues that Plaintiffs must
demonstrate standing for “each and every provision
they challenge,” Plaintiffs have met this burden by

62a

showing they have standing as to Sections 3 and 4, the
only sections Plaintiffs challenge as against Dickson.
(Compl., Dkt. 1, at 46); Gee, 941 F.3d at 160. The Court
rejects Dickson’s argument that Plaintiffs must
establish standing as to provisions of S.B. 8 that they
do not challenge as against Dickson to sustain their
claims against him. Because the Court properly
addresses severability after a constitutional violation
has been found, the Court need not assess S.B. 8’s
severability provisions at this time. Gee, 941 F.3d at
173. Moreover, the Court notes that severability
provisions do not necessarily preclude a finding that,
if Section 3’s six-week ban on abortions is found to be
unconstitutional, other provisions of the law found to
be “mutually dependent” on the provisions challenged
here also would be unconstitutional. See SisterSong
Women of Color Reprod. Just. Collective v. Kemp, 472
F. Supp. 3d 1297, 1324 (N.D. Ga. 2020) (remaining
provisions of Georgia abortion law with severability
provision invalid where “mutually dependent” on
section found unconstitutional).
2. Standing
Dickson next claims that Plaintiffs have no
standing to bring their claims against him because
they have not demonstrated an impending injury-infact traceable to Dickson that could be redressed by an
injunction against him. (Dkt. 50, at 10–16).
Dickson first argues that he has “no intention” of
suing Plaintiffs under Section 3 of S.B. 8 because “he
is expecting each of the plaintiffs to comply with the
statute rather than expose themselves to private civilenforcement lawsuits.” (Dkt. 50, at 10). Dickson
emphasizes that Plaintiffs have not indicated whether
they intend to violate S.B. 8 when it takes effect,

63a

apparently under the impression that Plaintiffs must
“specifically allege” their intent to violate S.B. 8 in
order to establish standing. (Dkt. 50, at 11–12). As
such, Dickson argues that there is no impending
injury traceable to him or adversity between the
parties as required to support standing or meet the
“case or controversy” requirement under Article III.
(Dkt. 50, at 11).
Plaintiffs respond that they need not specifically
allege that they plan to violate S.B. 8 to establish
standing and, in any event, have demonstrated a
credible threat of enforcement by Dickson. (Dkt. 57, at
13–14). Plaintiffs are correct that they need not allege
they intent to violate a challenged statute to confer
standing. Indeed, the Supreme Court has repeatedly
stated that plaintiffs need not plead that they plan to
violate a law to have standing to challenge its
constitutionality. SBA List, 573 U.S. at 163 (“Nothing
in [the Supreme] Court’s decisions requires a plaintiff
who wishes to challenge the constitutionality of a law
to confess that he will in fact violate that law.”);
Holder v. Humanitarian L. Project, 561 U.S. 1, 15–16
(2010) (finding standing in a pre-enforcement action
based on plaintiffs’ allegation that “they would
provide similar support [to groups designated as
terrorist organizations] again if the statute’s allegedly
unconstitutional bar were lifted”); Vantage Trailers,
Inc. v. Beall Corp., 567 F.3d 745, 748 (5th Cir. 2009).
Dickson has cited no contrary authority, and the
Court thus rejects his argument that Plaintiffs have
failed to properly allege an injury-in-fact against him
by not admitting that they will violate S.B. 8 after
September 1.

64a

Additionally, Dickson has demonstrated his intent
to enforce S.B. 8 if Plaintiffs violate the law. (Dickson
Decl., Dkt. 50-1, at 1) (admitting that he “expect[s]
that the mere threat of civil lawsuits under section
171.208 will be enough to induce compliance” with
S.B. 8 by Plaintiffs”); (Dickson Mar. 29, 2021 Facebook
Post, Dkt. 57-2, at 7) (“[B]ecause of [S.B. 8] you will be
able to bring many lawsuits later this year against
any abortionists who are in violation of this bill. Let
me know if you are looking for an attorney to
represent you if you choose to do so. Will be glad to
recommend some.”); id. at 4 (stating with respect to
the then-pending S.B. 8 that “because of this bill you
will be able to bring many lawsuits later this year
against any at WWH [i.e., Plaintiff Whole Woman’s
Health] who are in violation of this law”); (Dickson
May 5, 2021 Facebook Post, Dkt. 57-1, at 4) (“The
Heartbeat Bill is being said to make everyone in Texas
an attorney general going after abortionists.”). Based
on Dickson’s statements regarding his intent to
participate in the private enforcement of Section 3
should Plaintiffs continue to provide the banned
abortions after September 1, the Court finds that
Plaintiffs have sufficiently alleged “a significant
possibility of future harm” in the form of an
enforcement action by Dickson under Section 3 to
support their standing against him. City of Austin v.
Paxton, 943 F.3d 993, 1002 (5th Cir. 2019).
Dickson also argues that any alleged injury to
Plaintiffs caused by S.B. 8’s Section 3 cannot be
redressed by this Court because even if Dickson is
enjoined from bringing an enforcement action, there
are “countless others” who would bring enforcement
actions under S.B. 8. (Dkt. 50, at 13–14). As Plaintiffs
point out, however, because an order preventing

65a

“these [private] penalties and lawsuits” by Dickson
would alleviate “a discrete injury” to Plaintiffs,
Plaintiffs have sufficiently demonstrated standing as
to Dickson. (Dkt. 57, at 17) (citing Allstate Ins. Co. v.
Abbott, 495 F.3d 151, 159 (5th Cir. 2007); see also
Massachusetts v. EPA, 549 U.S. 497, 525 (2007)
(“[P]laintiff need not show that a favorable decision
will relieve his every injury.’ ”). Indeed, Plaintiffs have
alleged that an injunction preventing Dickson from
bringing enforcement actions under S.B. 8 would
redress their injuries, at least in part, by preventing
Dickson from “suing and imposing significant
litigation costs on Plaintiffs.” (Dkt. 57, at 16).
Moreover, any injunction by this Court would serve as
a
“strong
deterrent”
to
other
individuals
contemplating bringing enforcement actions under
S.B. 8 and allow defendants in S.B. 8 proceedings in
state court to bring counterclaims under Section 1983.
(Dkt. 57, at 18). Preventing Dickson and discouraging
others from filing S.B. 8 enforcement actions would
also prevent the discrete harm of forcing Plaintiffs to
shut down completely to comply with S.B. 8. (Id. at
16–17).
Dickson similarly argues that Plaintiffs alleged
injury under Section 4 is too “conjectural” to confer
standing because he has not been deemed a
“prevailing party” in any relevant lawsuit and
Plaintiffs do not allege that he will be a prevailing
party in this lawsuit. (Dkt. 50, at 14–15). Dickson
further contends that if he does prevail in this
litigation, he intends to recover his attorney’s fees
under 42 U.S.C. § 1988(b), rather than under Section
4, and as such “currently” has no intention of
enforcing Section 4. (Dkt. 50, at 14–15) (“Dickson has
not yet decided, however, whether he will sue the

66a

plaintiffs under section 4 if he is unsuccessful in
recovering fees under 42 U.S.C. § 1988(b).”).
Plaintiffs respond that Dickson has not disputed
that Section 4 empowers him to seek attorney’s fees
and costs if he is successful on any claim in this case
or that he will seek attorney’s fees in the event
Plaintiffs are not successful in every claim. (Dkt. 57,
at 18–19). Plaintiffs argue that Dickson would have to
move for attorney’s fees under Section 4 because
“Dickson has no colorable basis for fees under Section
1988” because Plaintiffs’ claim against him are wellfounded. (Dkt. 57, at 19). The Court agrees.
Fees are available to defendants under 42 U.S.C §
1988 only if the court finds the action is “frivolous,
unreasonable, or without foundation.” Christiansburg
Garment Co. v. EEOC, 434 U.S. 412, 421 (1978). The
Court finds that Dickson has not met the “difficult
standard” of showing that Plaintiffs’ claims are
groundless or without foundation. Mitchell v. City of
Moore, Oklahoma, 218 F.3d 1190, 1203 (10th Cir.
2000) (“This is a difficult standard to meet, to the point
that rarely will a case be sufficiently frivolous to
justify imposing attorney fees on the plaintiff.”).
Having withstood the motions to dismiss phase
against all Defendants, and in the absence of any
showing on Dickson’s part tending to show that
Plaintiffs’ claims rely on “an indisputably meritless
legal theory,” the Court finds that Dickson will not be
able to rely on Section 1988 to recover fees in this
action. See Doe v. Silsbee Indep. Sch. Dist., 440 F.
App’x 421, 425 (5th Cir. 2011) (“[T]he dismissal of a
plaintiff’s claims before they reach the jury is
insufficient by itself to support a finding of frivolity.”).

67a

In any event, Dickson has demonstrated his intent
to recover attorney’s fees in this action, and in the
absence of relief available to him under Section 1988,
he will necessarily need to rely on Section 4 in making
such a request. (Dickson Decl., Dkt. 50-1, at 3) (“If I
am unsuccessful in recovering fees under 42 U.S.C. §
1988(b) at the conclusion of this litigation, then I will
consider at that time whether to sue the plaintiffs
under section 30.022 of the Texas Civil Practice and
Remedies Code, in consultation with my attorneys.”).
Moreover, as described above, Plaintiffs need not wait,
as Dickson suggests, for him to be considered a
“prevailing party” in this litigation and fail to recover
fees under Section 1988 to seek a pre-enforcement
remedy in this Court for Dickson’s future exercise of
Section 4 in this case or others. See Susan B. Anthony
List, 573 U.S. at 160.
Next, Dickson argues that Plaintiffs lack standing
to seek an injunction to prevent enforcement of S.B. 8
against parties not named in this lawsuit and in the
absence of a plaintiff class, which would presumably
represent every person who might be sued under S.B.
8 in the future. (Dkt. 50, at 22–24). Dickson asks the
Court to dismiss Plaintiffs’ claim to the extent they
seek relief on behalf of those not before this Court.
(Dkt. 50, at 24). The Court finds that Plaintiffs have
clearly sought relief on behalf of themselves and do
not purport to bring their claims on behalf of others
not before this Court. (Compl., Dkt.1, at 39–47). The
Court thus rejects Dickson’s argument that this Court
must dismiss Plaintiffs’ claims on this basis. Lastly,
Dickson argues that this Court has “no power to
formally revoke legislation or delay its effective start
date” but rather may only enjoin named defendants
from enforcing the statute. (Dkt. 50, at 24–26). The

68a

Court again finds this argument perplexing given that
Plaintiffs have specifically sought an injunction
preventing the named defendants in this lawsuit from
enforcing S.B. 8. (See, e.g., Dkt. 1, at 46) (requesting
that the Court issue “permanent, and if necessary,
preliminary injunctive relief . . . restrain[ing]
Defendant Mark Lee Dickson, his agents, servants,
employees, attorneys, and any persons in active
concert or participation with him, from enforcing S.B.
8 in any way.”). The Court finds this argument
unavailing. Accordingly, the Court finds that
Dickson’s motion to dismiss must be denied.
IV. CONCLUSION
For the reasons given above, IT IS ORDERED
that Defendants’ motions to dismiss, (Dkts. 48, 49, 50,
51), are DENIED.
SIGNED on August 25, 2021.
/s/ Robert Pitman
ROBERT PITMAN
UNITED STATES DISTRICT JUDGE

69a

Appendix B
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
____________
No. 21-50708
____________
In re: PENNY CLARKSTON; MARK LEE
DICKSON,
____________
Petition for a Writ of Mandamus
to the United States District Court
for the Western District of Texas
USDC No. 1:21-CV-616
____________
Filed: August 13, 2021
____________
Before SOUTHWICK, GRAVES, and COSTA, Circuit
Judges.
PER CURIAM:
Petitioners seek a writ of mandamus primarily for
the purpose of having the district court rule on a
motion to dismiss prior to that court’s requiring the
petitioners to respond to a motion for summary
judgment. We do not further detail the petition. After
entering an administrative stay, which will end with
this order, we received a response from the plaintiffs

70a

in the case, a reply from petitioners, and a statement
from the district court.
We conclude that the essence of what petitioners
request is that this court alter the schedule
established by the district court for briefing. We
interpret the district court’s statement to be that an
order on the motion to dismiss will be issued no later
than any order as to summary judgment. We do not
find in petitioners’ arguments a basis to grant the
extraordinary relief of a writ of mandamus simply to
direct the timing of briefing.
IT IS ORDERED that the administrative stay
earlier entered by this court is WITHDRAWN.
IT IS ORDERED that the petition for writ of
mandamus is DENIED.
IT IS FURTHER ORDERED that the petitioners’
opposed emergency motion to stay the district court
proceedings is DENIED.

71a

Appendix C
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION
____________
No. 1:21-CV-616-RP
____________
WHOLE WOMAN’S HEALTH, on behalf of itself, its
staff, physicians, nurses, and patients; ALAMO CITY
SURGERY CENTER, P.L.L.C., on behalf of itself, its
staff, physicians, nurses, and patients, doing
business as Alamo Women’s Reproductive Services;
BROOKSIDE WOMEN’S MEDICAL CENTER, P.A.,
on behalf of itself, its staff, physicians, nurses, and
patients, doing business as Brookside Women’s
Health Center and Austin Women's Health Center;
HOUSTON WOMEN’S CLINIC, on behalf of itself,
its staff, physicians, nurses, and patients;
HOUSTON WOMEN’S REPRODUCTIVE
SERVICES, on behalf of itself, its staff, physicians,
nurses, and patients; PLANNED PARENTHOOD
CENTER FOR CHOICE, on behalf of itself, its staff,
physicians, nurses, and patients; PLANNED
PARENTHOOD OF GREATER TEXAS SURGICAL
HEALTH SERVICES, on behalf of itself, its staff,
physicians, nurses, and patients; PLANNED
PARENTHOOD SOUTH TEXAS SURGICAL
CENTER, on behalf of itself, its staff, physicians,
nurses, and patients; SOUTHWESTERN WOMEN’S
SURGERY CENTER, on behalf of itself, its staff,
physicians, nurses, and patients; WHOLE

72a

WOMEN’S HEALTH ALLIANCE, on behalf of itself,
its staff, physicians, nurses, and patients; MEDICAL
DOCTOR ALLISON GILBERT, on behalf of herself
and her patients; MEDICAL DOCTOR BHAVIK
KUMAR, on behalf of himself and his patients; THE
AFIYA CENTER, on behalf of itself and its staff;
FRONTERA FUND, on behalf of itself and its staff;
FUND TEXAS CHOICE, on behalf of itself and its
staff; JANE’S DUE PROCESS, on behalf of itself and
its staff; LILITH FUND, Incorporated, on behalf of
itself and its staff; NORTH TEXAS EQUAL ACCESS
FUND, on behalf of itself and its staff; REVEREND
ERIKA FORBES; REVEREND DANIEL KANTER;
MARVA SADLER,
PLAINTIFFS,
v.
AUSTIN REEVE JACKSON, in his official capacity
as Judge of the 114th District Court, and on behalf of
a class of all Texas judges similarly situated; PENNY
CLARKSTON, in her official capacity as Clerk for the
District Court of Smith County, and on behalf of a
class of all Texas court clerks similarly situated;
MARK LEE DICKSON; STEPHEN BRINT
CARLTON, in his official capacity as Executive
Director of the Texas Medical Board; KATHERINE
A. THOMAS, in her official capacity as Executive
Director of the Texas Board of Nursing; CECILE
ERWIN YOUNG, in her official capacity as Executive
Commissioner of the Texas Health and Human
Services Commission; ALLISON VORDENBAUMEN
BENZ, in her official capacity as Executive Director

73a

of the Texas Board of Pharmacy; and KEN PAXTON,
in his official capacity as Attorney General of Texas,
DEFENDANTS.
____________
Filed: August 27, 2021
____________
ORDER GRANTING IN PART AND DENYING
IN PART DEFENDANTS’ MOTION TO STAY
CASE AND VACATE THE PRELIMINARY
INJUNCTION HEARING
____________
Before the Court is Defendants’ opposed motion to
stay case and vacate the preliminary injunction
hearing. (Dkt. 84). Plaintiffs filed a response, (Dkt.
86), and Defendants’ filed a reply, (Dkt. 87). Having
reviewed the parties’ briefs and the relevant law, the
court will grant in part and deny in part Defendants’
motion.
Defendants ask the Court to stay this case and
vacate the upcoming preliminary injunction hearing
because they have appealed this Court’s order denying
their motions to dismiss, (Order, Dkt. 82; Not. Appeal,
Dkt. 83). Defendants argue that this Court lacks
jurisdiction over this case because they have appealed
the Court’s denial of their claims of sovereign
immunity under the collateral order doctrine. (Dkt.
84, at 1). Under the collateral order doctrine,
Defendants may appeal a denial of a motion to dismiss
asserting sovereign immunity. (Id.) (citing McCarthy
ex rel. Travis v. Hawkins, 381 F.3d 407, 411–12 (5th
Cir. 2004)). In their response, Plaintiffs ask the Court

74a

to retain jurisdiction by certifying Defendants’ appeal
as “frivolous or dilatory.” (Dkt. 86, at 2) (citing
BancPass, Inc. v. Highway Toll Admin., L.L.C., 863
F.3d 391, 399 (5th Cir. 2017)). The Court is unwilling
to make an “express finding of frivolousness” as to
Defendants’ appeal and rejects Plaintiffs’ invitation to
do so at this time. BancPass, Inc., 863 F.3d at 400.
Nonetheless, the Court finds that only Defendants
Allison Vordenbaumen Benz, Stephen Brint Carlton,
Ken Paxton, Katherine A. Thomas, Cecile Erwin
Young, Austin Reeve Jackson, Penny Clarkston (“the
State Defendants”) have asserted that they are
immune from suit under the doctrine of sovereign
immunty. (See Mots. Dismiss, Dkts. 48, 49, 50, 51).
The Court will thus grant Defendants’ motion as to
the State Defendants.
Defendant Mark Lee Dickson (“Dickson”),
however, has not asserted that he is entitled to
sovereign immunity, and as a private actor, he could
not make such a claim. As Defendants acknowledge in
their reply, their appeal has only divested this Court
of jurisidiction as to the State Defendants. (Reply,
Dkt. 87, at 1). Defendants attempt to couch Dickson’s
standing to appeal this Court’s order by citing to cases
dealing with appeals of final orders or interlocutory
appeals by state actors claiming sovereign immuntiy.
(Dkt. 87, at 2) (citing Hollingsworth v. Perry, 570 U.S.
693, 704 (2013); Hospitality House, Inc. v. Gilbert, 298
F.3d 424, 429 (5th Cir. 2002) (court reviewed subject
matter jurisdiction in state health official’s collateral
order doctrine appeal of denial of motion to dismiss)).
None of these cases are relevant here. Given that
Dickson has made no claim to sovereign immunity,
the denial of his motion to dismiss is not appealable.

75a

Newball v. Offshore Logistics Int’l, 803 F.2d 821, 824
(5th Cir. 1986). Moreover, Dickson does not provide
the Court with a legitimate independent basis for
staying the proceedings as to him. Finding that
Dickson has not shown good cause as to why the
proceedings against him should not go forward, the
Court denies Defendants’ motion as to Dickson.
Accordingly, IT IS ORDERED that Defendants’
opposed motion to stay case and vacate the
preliminary injunction hearing, (Dkt. 84), is
GRANTED IN PART and DENIED IN PART.
Defendants’ motion is granted as to the State
Defendants and denied as to Dickson.

76a

SIGNED on August 27, 2021.
/s/ Robert Pitman
ROBERT PITMAN
UNITED STATES DISTRICT JUDGE

77a

Appendix D
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
____________
No. 21-50792
____________
WHOLE WOMAN’S HEALTH, on behalf of itself, its
staff, physicians, nurses, and patients; ALAMO CITY
SURGERY CENTER, P.L.L.C., on behalf of itself, its
staff, physicians, nurses, and patients, doing
business as Alamo Women’s Reproductive Services;
BROOKSIDE WOMEN’S MEDICAL CENTER, P.A.,
on behalf of itself, its staff, physicians, nurses, and
patients, doing business as Brookside Women’s
Health Center and Austin Women's Health Center;
HOUSTON WOMEN’S CLINIC, on behalf of itself,
its staff, physicians, nurses, and patients;
HOUSTON WOMEN’S REPRODUCTIVE
SERVICES, on behalf of itself, its staff, physicians,
nurses, and patients; PLANNED PARENTHOOD
CENTER FOR CHOICE, on behalf of itself, its staff,
physicians, nurses, and patients; PLANNED
PARENTHOOD OF GREATER TEXAS SURGICAL
HEALTH SERVICES, on behalf of itself, its staff,
physicians, nurses, and patients; PLANNED
PARENTHOOD SOUTH TEXAS SURGICAL
CENTER, on behalf of itself, its staff, physicians,
nurses, and patients; SOUTHWESTERN WOMEN’S
SURGERY CENTER, on behalf of itself, its staff,
physicians, nurses, and patients; WHOLE
WOMEN’S HEALTH ALLIANCE, on behalf of itself,

78a

its staff, physicians, nurses, and patients; MEDICAL
DOCTOR ALLISON GILBERT, on behalf of herself
and her patients; MEDICAL DOCTOR BHAVIK
KUMAR, on behalf of himself and his patients; THE
AFIYA CENTER, on behalf of itself and its staff;
FRONTERA FUND, on behalf of itself and its staff;
FUND TEXAS CHOICE, on behalf of itself and its
staff; JANE’S DUE PROCESS, on behalf of itself and
its staff; LILITH FUND, Incorporated, on behalf of
itself and its staff; NORTH TEXAS EQUAL ACCESS
FUND, on behalf of itself and its staff; REVEREND
ERIKA FORBES; REVEREND DANIEL KANTER;
MARVA SADLER,
Plaintiffs—Appellees,
versus
AUSTIN REEVE JACKSON, in his official capacity
as Judge of the 114th District Court, and on behalf of
a class of all Texas judges similarly situated; PENNY
CLARKSTON, in her official capacity as Clerk for the
District Court of Smith County, and on behalf of a
class of all Texas court clerks similarly situated;
MARK LEE DICKSON; STEPHEN BRINT
CARLTON, in his official capacity as Executive
Director of the Texas Medical Board; KATHERINE
A. THOMAS, in her official capacity as Executive
Director of the Texas Board of Nursing; CECILE
ERWIN YOUNG, in her official capacity as Executive
Commissioner of the Texas Health and Human
Services Commission; ALLISON VORDENBAUMEN
BENZ, in her official capacity as Executive Director
of the Texas Board of Pharmacy; and KEN PAXTON,
in his official capacity as Attorney General of Texas,
Defendants—Appellants.

79a

____________
Appeal from the United States District Court
for the Western District of Texas
____________
Filed: August 27, 2021
____________
Before JONES, DUNCAN, and ENGELHARDT,
Circuit Judges.
PER CURIAM:
IT IS ORDERED that a temporary administrative
stay of the district court proceedings, including the
upcoming preliminary injunction hearing, is
GRANTED until further order of this court. Appellant
Mark Lee Dickson is ORDERED to file a combined
response and reply of no more than 7,500 words to
Appellees’ Combined Motion to Dismiss DefendantAppellant Mark Lee Dickson’s Appeal and Opposition
to Emergency Stay Motion, by 9 a.m. central time on
Tuesday, August 31, 2021.
IT IS FURTHER ORDERED that Appellees’ joint
opposed motion to expedite the appeal is DENIED.

80a

Appendix E
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
____________
No. 21-50792
____________
WHOLE WOMAN’S HEALTH, on behalf of itself, its
staff, physicians, nurses, and patients; ALAMO CITY
SURGERY CENTER, P.L.L.C., on behalf of itself, its
staff, physicians, nurses, and patients, doing
business as Alamo Women’s Reproductive Services;
BROOKSIDE WOMEN’S MEDICAL CENTER, P.A.,
on behalf of itself, its staff, physicians, nurses, and
patients, doing business as Brookside Women’s
Health Center and Austin Women's Health Center;
HOUSTON WOMEN’S CLINIC, on behalf of itself,
its staff, physicians, nurses, and patients;
HOUSTON WOMEN’S REPRODUCTIVE
SERVICES, on behalf of itself, its staff, physicians,
nurses, and patients; PLANNED PARENTHOOD
CENTER FOR CHOICE, on behalf of itself, its staff,
physicians, nurses, and patients; PLANNED
PARENTHOOD OF GREATER TEXAS SURGICAL
HEALTH SERVICES, on behalf of itself, its staff,
physicians, nurses, and patients; PLANNED
PARENTHOOD SOUTH TEXAS SURGICAL
CENTER, on behalf of itself, its staff, physicians,
nurses, and patients; SOUTHWESTERN WOMEN’S
SURGERY CENTER, on behalf of itself, its staff,
physicians, nurses, and patients; WHOLE
WOMEN’S HEALTH ALLIANCE, on behalf of itself,

81a

its staff, physicians, nurses, and patients; MEDICAL
DOCTOR ALLISON GILBERT, on behalf of herself
and her patients; MEDICAL DOCTOR BHAVIK
KUMAR, on behalf of himself and his patients; THE
AFIYA CENTER, on behalf of itself and its staff;
FRONTERA FUND, on behalf of itself and its staff;
FUND TEXAS CHOICE, on behalf of itself and its
staff; JANE’S DUE PROCESS, on behalf of itself and
its staff; LILITH FUND, Incorporated, on behalf of
itself and its staff; NORTH TEXAS EQUAL ACCESS
FUND, on behalf of itself and its staff; REVEREND
ERIKA FORBES; REVEREND DANIEL KANTER;
MARVA SADLER,
Plaintiffs–Appellees,
versus
AUSTIN REEVE JACKSON, in his official capacity
as Judge of the 114th District Court, and on behalf of
a class of all Texas judges similarly situated; PENNY
CLARKSTON, in her official capacity as Clerk for the
District Court of Smith County, and on behalf of a
class of all Texas court clerks similarly situated;
MARK LEE DICKSON; STEPHEN BRINT
CARLTON, in his official capacity as Executive
Director of the Texas Medical Board; KATHERINE
A. THOMAS, in her official capacity as Executive
Director of the Texas Board of Nursing; CECILE
ERWIN YOUNG, in her official capacity as Executive
Commissioner of the Texas Health and Human
Services Commission; ALLISON VORDENBAUMEN
BENZ, in her official capacity as Executive Director
of the Texas Board of Pharmacy; and KEN PAXTON,
in his official capacity as Attorney General of Texas,
Defendants–Appellants.

82a

____________
Appeal from the United States District Court
for the Western District of Texas
____________
Filed: August 29, 2021
____________
Before JONES, DUNCAN, and ENGELHARDT,
Circuit Judges.
PER CURIAM:
IT IS ORDERED that Appellees’ emergency
motion for an injunction pending appeal is DENIED.
IT IS FURTHER ORDERED that Appellees’
emergency
motion
to
vacate
this
court’s
administrative stay of the district court proceedings
and to vacate the district court’s stay of proceedings
as to the government official defendants is DENIED.
IT IS FURTHER ORDERED that Appellees’
emergency motion to vacate the district court order
denying Appellants’ motion to dismiss, to dismiss this
appeal as moot, and to issue the mandate forthwith is
DENIED.

83a

Appendix F
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
____________
No. 21-50792
____________
WHOLE WOMAN’S HEALTH, on behalf of itself, its
staff, physicians, nurses, and patients; ALAMO CITY
SURGERY CENTER, P.L.L.C., on behalf of itself, its
staff, physicians, nurses, and patients, doing
business as Alamo Women’s Reproductive Services;
BROOKSIDE WOMEN’S MEDICAL CENTER, P.A.,
on behalf of itself, its staff, physicians, nurses, and
patients, doing business as Brookside Women’s
Health Center and Austin Women's Health Center;
HOUSTON WOMEN’S CLINIC, on behalf of itself,
its staff, physicians, nurses, and patients;
HOUSTON WOMEN’S REPRODUCTIVE
SERVICES, on behalf of itself, its staff, physicians,
nurses, and patients; PLANNED PARENTHOOD
CENTER FOR CHOICE, on behalf of itself, its staff,
physicians, nurses, and patients; PLANNED
PARENTHOOD OF GREATER TEXAS SURGICAL
HEALTH SERVICES, on behalf of itself, its staff,
physicians, nurses, and patients; PLANNED
PARENTHOOD SOUTH TEXAS SURGICAL
CENTER, on behalf of itself, its staff, physicians,
nurses, and patients; SOUTHWESTERN WOMEN’S
SURGERY CENTER, on behalf of itself, its staff,
physicians, nurses, and patients; WHOLE
WOMEN’S HEALTH ALLIANCE, on behalf of itself,

84a

its staff, physicians, nurses, and patients; MEDICAL
DOCTOR ALLISON GILBERT, on behalf of herself
and her patients; MEDICAL DOCTOR BHAVIK
KUMAR, on behalf of himself and his patients; THE
AFIYA CENTER, on behalf of itself and its staff;
FRONTERA FUND, on behalf of itself and its staff;
FUND TEXAS CHOICE, on behalf of itself and its
staff; JANE’S DUE PROCESS, on behalf of itself and
its staff; LILITH FUND, Incorporated, on behalf of
itself and its staff; NORTH TEXAS EQUAL ACCESS
FUND, on behalf of itself and its staff; REVEREND
ERIKA FORBES; REVEREND DANIEL KANTER;
MARVA SADLER,
Plaintiffs—Appellees,
versus
AUSTIN REEVE JACKSON, in his official capacity
as Judge of the 114th District Court, and on behalf of
a class of all Texas judges similarly situated; PENNY
CLARKSTON, in her official capacity as Clerk for the
District Court of Smith County, and on behalf of a
class of all Texas court clerks similarly situated;
MARK LEE DICKSON; STEPHEN BRINT
CARLTON, in his official capacity as Executive
Director of the Texas Medical Board; KATHERINE
A. THOMAS, in her official capacity as Executive
Director of the Texas Board of Nursing; CECILE
ERWIN YOUNG, in her official capacity as Executive
Commissioner of the Texas Health and Human
Services Commission; ALLISON VORDENBAUMEN
BENZ, in her official capacity as Executive Director
of the Texas Board of Pharmacy; and KEN PAXTON,
in his official capacity as Attorney General of Texas,
Defendants—Appellants.

85a

____________
Appeal from the United States District Court
for the Western District of Texas
____________
Filed: September 10, 2021
____________
Before JONES, DUNCAN, and ENGELHARDT,
Circuit Judges.
PER CURIAM:
This case presents a challenge to a recently
enacted Texas law, S.B. 8, which authorizes private
civil actions against persons who abort an unborn
child with a detectable fetal heartbeat. The plaintiffs,
a coalition of Texas abortion providers, principally
seek an injunction against the Texas court system—
judges, clerks, and a hypothetical private litigant—to
prevent any Texas court from entertaining suits under
S.B. 8. The unusual nature of the law and of the
challenge to it raise “complex and novel antecedent
procedural questions.” Whole Woman’s Health v.
Jackson, No. 21A24, 2021 WL 3910722, at *1 (U.S.
Sept. 1, 2021). Our panel must address some of those
questions in order to decide a flurry of motions filed as
the law took effect last Wednesday, September 1.
The motions arise out of the defendants’ appeal of
the district court’s denial of their motions to dismiss
the case on jurisdictional grounds. Due to the
compressed timeframe, we had to decide some of those
motions without giving reasons. We give them now.
Two other motions concerning the private individual,

86a

Mark Lee Dickson, are still pending. We decide those
today. At the outset, we provide a summary of our
ruling.
First, as to the state officials’ appeal. The district
court denied the officials’ Eleventh Amendment
immunity defenses, and they immediately appealed
under the collateral-order doctrine. The district court
properly stayed proceedings against those defendants.
However, the plaintiffs then sought an emergency
motion for injunction pending appeal, premised on
their argument that the district court’s Eleventh
Amendment immunity ruling was correct. We
previously DENIED that motion and now explain
why. S.B. 8 emphatically precludes enforcement by
any state, local, or agency officials. The defendant
officials thus lack any “enforcement connection” to
S.B. 8 and are not amenable to suit under Ex parte
Young, 209 U.S. 123 (1908).
Second, as to Dickson’s appeal. The district court
denied Dickson’s motion to dismiss, which relied on
standing and other jurisdictional grounds, and
Dickson appealed. But the district court declined to
stay proceedings against Dickson and proposed to go
forward against him alone. Dickson then asked us for
a stay, and we temporarily stayed proceedings while
considering his request. In the meantime, the
plaintiffs moved to dismiss Dickson’s appeal. We
conclude that jurisdictional issues presented in the
proceedings against Dickson are related to the issues
presented in the state officials’ collateral-order
appeal. The notice of appeal therefore divested the
district court of jurisdiction over Dickson as well as
the officials. See Griggs v. Provident Consumer
Discount Co., 459 U.S. 56, 58 (1982). Accordingly, we

87a

DENY the plaintiffs’ motion to dismiss Dickson’s
appeal, and we GRANT Dickson’s motion to stay the
district court proceedings pending appeal.
Finally, we EXPEDITE the appeal to the next
available oral argument panel.
BACKGROUND
A group of Texas abortion providers and others
(“Plaintiffs”)1 brought a pre-enforcement challenge
under 42 U.S.C. § 1983 to Senate Bill 8 (“S.B. 8”), a
Texas abortion law that took effect on September 1,
2021. S.B. 8, 87th Leg., Reg. Sess. (Tex. 2021) (codified
at Tex. Health & Safety Code § 171.201, et seq.).
Plaintiffs named as defendants several Texas agency
heads and a putative class of all Texas state judges
and clerks of court (“State Defendants”) as well as a
private Texas citizen, Mark Lee Dickson (“Dickson”)
(collectively “Defendants”).2 They sought injunctive
1 Plaintiffs (Appellees here) are Whole Woman’s Health,
Alamo City Surgery Center P.L.L.C. d/b/a Alamo Women’s
Reproductive Services; Brookside Women’s Medical Center, P.A.
d/b/a Brookside Women’s Health Center and Austin Women’s
Health Center; Houston Women’s Clinic; Houston Women’s
Reproductive Services; Planned Parenthood Center for Choice;
Planned Parenthood of Greater Texas Surgical Health Services;
Planned Parenthood South Texas Surgical Center; Southwestern
Women’s Surgery Center; Whole Women’s Health Alliance;
Medical Doctor Allison Gilbert; Medical Doctor Bhavik Kumar;
The Afiya Center; Frontera Fund; Fund Texas Choice; Jane’s
Due Process; Lilith Fund, Inc.; North Texas Equal Access Fund;
Reverend Erika Forbes; Reverend Daniel Kanter; Marva Sadler.
2 Defendants (Appellants here) are Judge Austin Reeve
Jackson, a state district judge in Smith County, Texas; Penny
Clarkston, a clerk for the district court of Smith County; Mark
Lee Dickson, the prolife activist; Stephen Brint Carlton, the
county judge of Orange County, Texas; Katherine A. Thomas,
Executive Director of the Texas Board of Nursing; Cecile Erwin

88a

and declaratory relief to prevent enforcement of the
law.
S.B. 8 prohibits a physician from performing an
abortion on “a pregnant woman”3 if her unborn child
has a detectable fetal heartbeat, absent a medical
emergency. Tex. Health & Safety Code §§ 171.204(a);
171.205(a). Conspicuously, the law limits enforcement
to “private civil actions.” Section 171.207, entitled
“Limitations on Public Enforcement,” provides in
relevant part:
Notwithstanding Section 171.005 or any other
law, the requirements of this subchapter shall
be enforced exclusively through the private
civil actions described in Section 171.208. No
enforcement of this subchapter, and no
enforcement of Chapters 19 and 22, Penal
Code, in response to violations of this
subchapter, may be taken or threatened by
this state, a political subdivision, a district or
county attorney, or an executive or
administrative officer or employee of this state
or a political subdivision against any person,
except as provided in Section 171.208.

Young, Executive Commissioner of the Texas Health and Human
Services Commission; Allison Vordenbaumen Benz, Executive
Director of the Texas State Board of Pharmacy; and Ken Paxton,
Texas Attorney General.
3 The district court felt moved to “note that people other than
those who identify as ‘women’ may also become pregnant and
seek abortion services.” Order at 2 n.2. This notion, whatever it
might mean, ignores that the law applies only to “an abortion on
a pregnant woman.” Tex. Health & Safety Code § 171.204(a)
(emphasis added).

89a

Id. § 171.207(a).4 In turn, section 171.208 provides
that “any person” other than state officials may bring
a civil action against persons who perform prohibited
abortions and those who aid and abet them. Id.
§ 171.208(a). If a violation is found, courts shall award
injunctive relief, damages “not less than $10,000” for
each abortion, and costs and attorney’s fees. Id.
§ 171.208(b). Among other affirmative defenses, a
defendant may prove that the relief sought “will
impose an undue burden” on a woman or women the
defendant has standing to represent. Id. § 171.209(b);
see also id. § 171.208(f).
In light of S.B. 8’s enforcement mechanism,
Plaintiffs have adopted a novel strategy for their preenforcement challenge. Principally, they seek to
enjoin the entire Texas judiciary to prevent any court
from entertaining S.B. 8 lawsuits. See Compl. for Decl.
and Inj. Relief—Class Action (“Compl.”), at 35
(seeking to certify a class “of all non-federal judges in
the State of Texas with jurisdiction over civil actions
and the authority to enforce S.B. 8”). To that end, they
have sued a putative class of all state judges and
clerks of court, as well as Dickson, who they allege is
likely to bring a future S.B. 8 civil action. But see
Whole Woman’s Health, 2021 WL 3910722, at *1
(observing “the sole private-citizen defendant before
us has filed an affidavit stating that he has no present
intention to enforce the law”). Following the logic of
that strategy, their complaint groups these

4 See also id. § 171.005 (providing S.B. 8 “shall be enforced
exclusively through the private civil enforcement actions
described by Section 171.208 and may not be enforced by the
commission”).

90a

defendants—judges, clerks, and Dickson— together.5
The complaint refers to Dickson as “a private
individual deputized to bring S.B. 8 enforcement
actions under color of state law.” Compl. at 7.6
As relevant here, all Defendants moved to dismiss
the lawsuit on the grounds of sovereign immunity and
Article III standing. The district court denied those
motions. Defendants appealed and sought from our
court an emergency stay of all district court
proceedings, including an impending preliminary
injunction hearing, as well as a temporary
administrative stay pending our resolution of the
emergency stay motion. While those motions were
pending, the district court granted a stay as to the
State Defendants, allowing proceedings to continue
against Dickson alone. In our court, Plaintiffs filed an
opposition to Dickson’s stay motion along with a
motion to dismiss his appeal. We then
administratively stayed all district court proceedings
and requested a response from Dickson, which he
filed.7
5 See Compl. at 7 (stating Plaintiffs bring claims “against a
putative class of Texas state-court judges who will be called upon
to enforce S.B. 8’s terms; a putative class of Texas court clerks
who will participate in the enforcement scheme by . . . accepting
S.B. 8 enforcement actions for filing and issuing service of
process; [and] Mark Lee Dickson, a private individual deputized
to bring S.B. 8 enforcement actions under color of state law, from
whom Plaintiffs face a credible threat of enforcement”).
6 Plaintiffs also sued various state agency officials, claiming
that they “indirectly” enforce S.B. 8 through after-the-fact
investigations and licensing decisions. We address the claims
against those defendants infra.
7 In the interim, we denied Plaintiffs’ emergency motions for
an injunction pending appeal, to vacate both courts’ stays, and to
vacate the district court’s order denying Defendants’ motion to

91a

DISCUSSION
I. State Defendants’ Appeal
We denied multiple requests for emergency relief
filed by Plaintiffs after 1 a.m. on Sunday, August 29,
2021. We now briefly explain the grounds for our
actions, as they relate to the State Defendants’ appeal
(we separately address the motions related to
Dickson’s appeal, infra).
Plaintiffs sought an injunction pending appeal to
prevent Defendants from enforcing S.B. 8. They also
filed emergency motions asking us to (a) vacate our
stay of all district court proceedings pending appeal of
the State Defendants’ Eleventh Amendment
immunity claims; (b) vacate the district court’s selfimposed stay of proceedings involving the State
Defendants in order to obtain rulings on class action
status and a temporary or preliminary injunction of
S.B. 8; or (c) vacate the district court’s denial of the
sovereign immunity claims and remand, purportedly
to restore district court jurisdiction over the entire
controversy. As the emergency motions’ viability is
contingent on Plaintiffs’ motion for injunction pending
appeal, we address only that request.
To obtain an injunction pending appeal pursuant
to Federal Rule of Appellate Procedure 8(a)(2)(A)(i),
Plaintiffs must show (1) a strong likelihood of success
on the merits; (2) irreparable injury in the absence of
an injunction; (3) that the balance of hardships weighs
dismiss. We also denied Plaintiffs’ request to decide the
underlying appeal on an expedited basis that would have
required full briefing and a decision over one weekend. Plaintiffs
then sought emergency injunctive relief in the United States
Supreme Court, which was denied. See Whole Woman’s Health,
2021 WL 3910722, at *1.

92a

in their favor if injunctive relief is granted; and (4)
that the public interest favors such relief. Fla.
Businessmen for Free Enter. v. City of Hollywood, 648
F.2d 956, 957 (5th Cir. 1981).8 Our denial turned on
the first prerequisite: Plaintiffs’ inability to
demonstrate a likelihood of success on the pending
immunity appeals.
Plaintiffs sued several categories of state officers:
the Texas Attorney General; certain state professional
licensing officials; a state district judge, and a court
clerk.9 Along with various standing and justiciability
principles likely to preclude federal court jurisdiction,
the State Defendants claim immunity under the
Eleventh Amendment, which forbids suits against
non- consenting states in federal court absent other
(here inapplicable) exceptions. See Seminole Tribe of
Florida v. Florida, 517 U.S. 44, 54 (1996). Plaintiffs
seek to avoid the Eleventh Amendment bar by
asserting that each type of State Defendant has “some
connection” with enforcing S.B. 8 that permits an
injunction against the officer in his or her official
capacity. See Young, 209 U.S. at 157. If a state officer
is a proper party under Ex parte Young, prospective
injunctive relief is available to order that officer not to
enforce state law that violates federal law. We must

8 We agree with Plaintiffs that it was “impracticable” first to
seek a stay in the district court. See Fed. R. App. P. 8(a)(2)(A)(i).
Our previously issued stay of district court proceedings,
including but not limited to a preliminary injunction hearing
originally scheduled to commence on Monday, August 30, made
district court action impracticable.
9 Pending in the district court is a motion to certify a class of
all Texas state judges and court clerks, but that motion has yet
to be decided.

93a

therefore consider the quality of connection between
each State Defendant and the enforcement of S.B. 8.
This court is no stranger to suits testing the limits
of the Young doctrine. In fact, Louisiana’s previous
attempts to regulate abortion practice resulted in an
en banc case and a subsequent panel decision. See
Okpalobi v. Foster, 244 F.3d 405 (5th Cir. 2001) (en
banc); K.P. v. LeBlanc, 627 F.3d 115, 125 (5th Cir.
2010). In Okpalobi, a state statute created private tort
claims against doctors who perform abortions. 244
F.3d at 409. This court held en banc that plaintiffs,
abortion providers covered by the law, lacked Article
III standing to sue the state’s governor and attorney
general, who had no more than a “general duty” to
enforce the law in question. Id. at 418. A significant
plurality also concluded that the plaintiffs failed to
show that those officers had a sufficient “enforcement
connection” to enable relief under Young. Okpalobi,
244 F.3d at 423 (plurality op.); see also id. at 416
(describing the required connection as a “particular
duty to enforce the statute . . . and a demonstrated
willingness to exercise that duty”).
A few years later, this court held that abortion
providers did state an actionable Young claim against
the members of the state board responsible for
overseeing the Louisiana Patient’s Compensation
Fund, where state law denied abortion providers the
benefit of participating in the Fund. K.P., 627 F.3d at
125. The K.P. court refused to speculate whether our
precedent requires a “special relationship,” as urged
by the Okpalobi plurality, or merely “some connection”
with state law to justify injunctive relief against the
state officer. Id. at 124. Instead, the court emphasized
that “[e]nforcement [of the challenged law] typically

94a

involves compulsion or constraint.” Id. at 124 (internal
quotations omitted). Under the facts presented, the
board members exercised the responsibility to approve
or deny claims pursuant to the law. Id. at 123. These
decisions bookend our analysis.10 Plaintiffs fail to
show any enforcement connection between any of the
State Defendants and S.B. 8, and therefore cannot
satisfy either understanding of Ex parte Young.
The district court, following the Plaintiffs’ lead,
read section 171.207(a) not to preclude enforcement by
the State Defendants. This ignores the statute’s plain
language: “Notwithstanding Section 171.005 or any
other law, the requirements of this subchapter shall
be enforced exclusively through the private civil
actions . . . .” § 171.207(a) (emphasis added). And the
provision continues, prohibiting civil or criminal
enforcement by “this state, a political subdivision, a
district or county attorney, or an executive or
administrative officer or employee of this state or a
political subdivision against any person.” Ibid. Indeed,
along with S.B. 8, the enforcement powers of the Texas
Health and Human Services Commission were
amended to provide that, unlike other chapters of the
code, S.B. 8 “shall be enforced exclusively through the
private civil enforcement actions described by Section
171.208 and may not be enforced by the commission.”
§ 171.005 (eff. Sept. 1, 2021) (emphasis added). This
language could not be plainer. Exclusive means
exclusive, and notwithstanding any other law means

10 See also City of Austin v. Paxton, 943 F.3d 993, 997 (5th
Cir. 2019) (articulating the “some connection” requirement).

95a

notwithstanding any other law.11 When the district
court imputed “indirect” S.B. 8 enforcement authority
to other agency provisions, it ran the multiple red
lights in S.B. 8’s text.
Confirming that none of the State Defendants has
an “enforcement connection” with S.B. 8 is not difficult
in light of the statute’s express language and our case
law. To begin, the Texas Attorney General has no
official connection whatsoever with the statute. No
enforcement power means no enforcement power.
Okpalobi teaches that state law enforcement officials’
general duty to enforce state law cannot render them
suable under Young. It follows a fortiori that the
doctrine cannot apply where state law specifically
forecloses them from acting.
Based on the same principle, Plaintiffs have no
Young claim against the state licensing officials,
namely the Executive Directors of the Texas Medical
Board, Texas Nursing Board, or the Texas Board of
Pharmacy, or the state Health and Human Services
Commissioner. The district court suggested these
officials would have authority to “indirectly” enforce
S.B. 8 by, for example, suspending the license of a
physician found to have violated S.B. 8. But the law’s
plain language is in tension with that conclusion. It
provides that “[n]o enforcement . . . in response to
violations of this subchapter . . . may be taken or
threatened by . . . an executive or administrative
officer or employee of this state . . . except as provided
in Section 171.208.” Tex. Health & Safety Code
§ 171.207(a). But even assuming such agency actions
11 In the same vein, section 171.208(a) authorizes civil suits
by any person “other than an officer or employee of a state or local
government entity . . . .”

96a

could follow an S.B. 8 judgment, it is speculative
whether those actions would ever occur, given the
vicissitudes of litigation. And even then, the agencies’
roles would bear little resemblance to agencies we
have found suable under Young. Take K.P., which
found board members proper defendants because they
themselves administered a fund from which a
challenged law purported to exclude abortion
providers. See K.P., 627 F.3d at 124–25 (explaining
“the Board’s role starts with deciding whether to have
a medical review panel consider abortion claims and
ends with deciding whether to pay them,” thus
“delegat[ing] [to Board members] some enforcement
authority”). The agency officials sued here have no
comparable “enforcement” role under S.B. 8. Under
the terms of S.B. 8, then, no prospective injunctive
relief is authorized against these officials.
Finally, Plaintiffs’ claims against a state judge
and court clerk are specious. Young explicitly excludes
judges from the scope of relief it authorizes:
[T]he right to enjoin an individual, even
though a state official, from commencing suits
. . . does not include the power to restrain a
court from acting in any case brought before
it, either of a civil or criminal nature. . . . [A]n
injunction against a state court would be a
violation of the whole scheme of our
government.
209 U.S. at 163. Moreover, it is well established that
judges acting in their adjudicatory capacity are not
proper Section 1983 defendants in a challenge to the
constitutionality of state law. Bauer v. Texas, 341 F.3d
352, 359 (5th Cir. 2003); Just. Network Inc. v.

97a

Craighead Cty., 931 F.3d 753, 763 (8th Cir. 2019);
Allen v. DeBello, 861 F.3d 433, 440 (3d Cir. 2017).
Since 1996, Section 1983 precludes injunction
actions against judicial officers acting in their judicial
capacity.12 Plaintiffs cite no cases to the contrary that
postdate this amendment. They do, however, focus on
this proviso to Section 1983, which states that where
declaratory relief is “unavailable,” an injunction may
be ordered against state judges. The proviso has no
force here because temporary unavailability, which is
all the Plaintiffs assert, is not “unavailability.” More
broadly, the Declaratory Judgment Act requires an
“actual controversy” between plaintiffs and
defendants, 28 U.S.C. § 2201(a), but no such
controversy exists. Jones v. Alexander, 609 F.2d 778,
781 (5th Cir. 1980). The Plaintiffs are not “adverse” to
the state judges. See Bauer, 341 F.3d at 359. When
acting in their adjudicatory capacity, judges are
disinterested neutrals who lack a personal interest in
the outcome of the controversy. It is absurd to contend,
as Plaintiffs do, that the way to challenge an
unfavorable state law is to sue state court judges, who
are bound to follow not only state law but the U.S.
Constitution and federal law.13 Plaintiffs’ position is
antithetical to federalism, violates the Eleventh
Amendment and Ex parte Young, and ignores state
separation of powers. Further, although not expressly
12 See 42 U.S.C. § 1983 (providing in relevant part that “in
any action brought against a judicial officer for an act or omission
taken in such officer’s judicial capacity, injunctive relief shall not
be granted unless a declaratory decree was violated or
declaratory relief was unavailable”).
13 In fact, several lawsuits challenging S.B. 8 are currently
pending in state court.

98a

covered by the judicial exception to 1983, the court
clerks act under the direction of judges acting in their
judicial capacity. Their duty within the court is to
accept and file papers in lawsuits, not to classify
“acceptable” pleadings. Accordingly, the clerks are
improper defendants against whom injunctive relief
would be meaningless. See Chancery Clerk of
Chickasaw Cty. v. Wallace, 646 F.2d 151, 160 (5th Cir.
1981).14
We are mindful that S.B. 8 applies to pre-viability
abortions, which may “raise[] serious questions
regarding the constitutionality of the Texas law.”
Whole Woman’s Health, 2021 WL 3910722, at *1. But
see also ibid. (noting the Court’s order “in no way
limits other procedurally proper challenges to the
Texas law, including in Texas state courts”); Tex.
Health & Safety Code § 171.209(b)–(c) (providing
“affirmative defense to liability” if defendant shows
that relief sought “will impose an undue burden” on a
properly represented woman or group of women). But
we must respect the limits of our jurisdiction. Based
on a suit against the State Defendants, to reach the
merits a federal court would have to exercise
“hypothetical jurisdiction,” a long-rejected technique
by which some courts had “assum[ed] the existence” of
jurisdiction in doubtful cases because they thought an
14 We do not even take into account the many other
justiciability defenses Defendants have raised beyond Young.
Defendants have argued powerfully that, not only do they enjoy
Eleventh Amendment immunity, but federal jurisdiction is also
lacking under Article III. Related doctrines of standing, ripeness,
and justiciability are also likely to prevail because these
Plaintiffs have no present or imminent injury from the
enactment of S.B. 8. See Lujan v. Defs. of Wildlife, 504 U.S. 555,
564 (1992).

99a

adverse ruling on the merits was easier. See Steel Co.
v. Citizens for a Better Env’t, 523 U.S. 83, 93–94
(1998). No version of hypothetical jurisdiction could
enable this court to grant Plaintiffs affirmative relief
in the absence of jurisdiction. See id. at 98–101.15 The
Supreme Court “decline[d] to endorse such an
approach because it carries the courts beyond the
bounds of authorized judicial action and thus offends
fundamental principles of separation of powers.” Id. at
94. A court would do precisely that if, in its zeal to
reach the merits, it hurdled the obvious jurisdictional
defects present here.
II. Dickson’s Appeal
We next address the two related motions pending
before us related to the appeal by Dickson, the
hypothetical private litigant sued by Plaintiffs.
Recall that Plaintiffs sued Dickson as part of their
pre-enforcement strategy to enjoin the Texas court
system from entertaining any S.B. 8 suits. Their
complaint treats their claims against Dickson
together with the putative class of state judges and
court clerks. See Compl. at 7. In seeking dismissal,
Dickson raised standing defenses as well as broader
justiciability issues. The district court denied
Dickson’s motion and, along with the State
Defendants, he appealed. In light of that appeal, the
district court stayed further proceedings as to the
State Defendants but not as to Dickson. The court
reasoned that Dickson did not assert a claim to
sovereign immunity nor “provide . . . a legitimate
independent basis for staying the proceedings as to
15 Cf. Norton v. Mathews, 427 U.S. 524 (1976); Secretary of
Navy v. Avrech, 418 U.S. 676 (1974) (per curiam); United States
v. Augenblick, 393 U.S. 348 (1969).

100a

him.” We then temporarily stayed district court
proceedings while considering whether Dickson was
entitled to a stay. Plaintiffs opposed Dickson’s stay
request and also moved to dismiss his appeal.
Consequently, the matters now before us are
Dickson’s motion for a stay pending appeal and
Plaintiffs’ motion to dismiss Dickson’s appeal. The
parties join argument on the basis of appellate
jurisdiction. Plaintiffs argue that we lack jurisdiction
to review the district court’s non-final order denying
Dickson dismissal on the basis of standing and that
Dickson’s appeal must therefore be dismissed. See,
e.g., Netsphere, Inc. v. Baron, 799 F.3d 327, 331 (5th
Cir. 2015) (“Our appellate jurisdiction is normally
limited to ‘final decisions of the district courts of the
United States.’”) (quoting 28 U.S.C. § 1291)). Dickson
counters that our appellate jurisdiction over the State
Defendants’ collateral-order appeal encompasses
issues implicated by his appeal. Therefore, he argues,
the notice of appeal divested the district court of
jurisdiction over him as well as the State Defendants,
and his appeal therefore should not be dismissed. This
is also the ground on which Dickson argues he merits
a stay pending appeal.16
Our court has jurisdiction under the collateralorder doctrine to immediately review the State
Defendants’ appeal contesting the order denying their
Eleventh Amendment immunity defenses. See, e.g.,
Haverkamp v. Linthicum, 6 F.4th 662, 669 (5th Cir.
2021) (citing Puerto Rico Aqueduct & Sewer Auth. v.
16 Dickson makes no separate argument that he is entitled
to a stay under the familiar four-part test applying Federal Rule
of Appellate Procedure 8. See Nken v. Holder, 556 U.S. 418, 426
(2009).

101a

Metcalf & Eddy, 506 U.S. 139, 143 (1993)).
Furthermore, the notice appealing that order
“divest[ed] the district court of its control over those
aspects of the case involved in the appeal.” Griggs, 459
U.S. at 58; see also Weingarten Realty Invs. v. Miller,
661 F.3d 904, 908 (5th Cir. 2011) (“Although appeals
transfer jurisdiction from the district court to the
appellate court concerning ‘those aspects of the case
involved in the appeal,’ the district court is
nonetheless free to adjudicate matters that are not
involved in that appeal.” (citations omitted)). The
district court implicitly found such a divestiture of
jurisdiction over the State Defendants, which explains
why it granted a stay as to them. But the court
concluded it was not similarly divested of jurisdiction
over Dickson, whose defenses it found distinct from
the State Defendants’ sovereign immunity defenses.
The court therefore denied a stay as to Dickson and—
if we dismiss Dickson’s appeal or deny his stay
motion—proposes to go forward with preliminary
injunction and summary judgment proceedings as to
Dickson alone.
We must therefore address whether the district
court’s proceedings as to Dickson encompass “aspects
of the case involved in the [State Defendants’] appeal.”
Griggs, 459 U.S. at 58; see also Weingarten, 661 F.3d
at 907–10 (applying Griggs). We ask whether “the
[State Defendants’] appeal and the claims before the
district court [as to Dickson] address the same legal
question.” Weingarten, 661 F.3d at 909. If they do,
then the district court was divested of jurisdiction over
Dickson by the filing of the notice of appeal, and
Dickson is therefore entitled to a stay of proceedings
pending appeal and a denial of the Plaintiffs’ motion
to dismiss. In this inquiry, sovereign immunity issues

102a

“call for a broader reading of the Griggs jurisdictional
transfer” than other issues. Ibid.; see also Alice L. v.
Dusek, 492 F.3d 563, 565 (5th Cir. 2007) (per curiam)
(“How broadly a court defines the aspects of the case
on appeal depends on the nature of the appeal.”).
Dickson makes various arguments as to why we
should rule in his favor, but we need address only one
to dispose of the present motions. As Dickson points
out, on an interlocutory appeal reviewing the denial of
Eleventh Amendment immunity, “we may first
determine whether there is federal subject matter
jurisdiction over the underlying case.” Hospitality
House, Inc. v. Gilbert, 298 F.3d 424, 429 (5th Cir.
2002) (citations omitted); see also Planned Parenthood
Gulf Coast, Inc. v. Phillips, 5 F.4th 568, 581 (5th Cir.
2021) (same). The State Defendants’ appeal, in
addition to Eleventh Amendment immunity,
encompasses other jurisdictional issues that also
pertain to Dickson. For instance, a significant issue is
whether a federal court has subject matter
jurisdiction to enjoin state officers acting in their
adjudicatory capacity, an issue raised repeatedly in
the district court by all parties.17 Indeed, the Supreme
Court has already questioned, in this very case, the
propriety of “issu[ing] an injunction against state
judges asked to decide a lawsuit under Texas’s law.”
17 See Bauer v. Texas, 341 F.3d 352, 359 (5th Cir. 2003) (“The
requirement of a justiciable controversy [under Article III of the
Constitution] is not satisfied where a judge acts in his
adjudicatory capacity.” (citations omitted)); Ex parte Young, 209
U.S. at 163 (“The difference between the power to enjoin an
individual from doing certain things, and the power to enjoin
courts from proceeding in their own way to exercise jurisdiction,
is plain, and no power to do the latter exists because of a power
to do the former.”).

103a

Whole Woman’s Health, 2021 WL 3910722, at *1
(citing Young, 209 U.S. at 163). In addition to his own
standing arguments, Dickson raised precisely these
same jurisdictional issues in the district court.18
It is therefore evident that the claims as to
Dickson implicate “aspects of the case involved in the
[State Defendants’] appeal.” Griggs, 459 U.S. at 58.
This follows from the underlying theory of Plaintiffs’
suit, which, as noted, seeks to enjoin the Texas
judiciary from entertaining S.B. 8 filings. Having
sought injunctive relief against Texas judges and
Texas clerks of court, Plaintiffs also logically sought
relief against a possible Texas litigant, Dickson.
Plaintiffs’ complaint makes the connection between
judges, clerks, and Dickson impossible to miss. As to
the clerks, Plaintiffs sued them because they are
“directed to accept filing of and issue citations for
service of process in S.B. 8 civil actions.” Compl. at 38.
As to the judges, Plaintiffs sued them because S.B. 8
actions “may be brought in the . . . [courts] where they
preside” and they are “directed to enforce compliance
with the Act by implementing the remedies mandated
by S.B. 8.” Id. at 36. And Plaintiffs sued Dickson
because of “a credible threat that he will sue them
under S.B. 8.” Id. at 16.19 Indeed, the complaint
18 Moreover, standing issues raised both in the appeal and
the district court pertain to all parties. For instance, whether
relief against any Defendant would redress the Plaintiffs’
claimed injuries cuts across every Defendant in the litigation,
including Dickson. This is the kind of subject-matter jurisdiction
issue that our court may properly consider in a collateral-order
appeal. See Hospitality House, 298 F.3d at 429.
19 See also id. at 7 (stating that Plaintiffs bring claims
“against a putative class of Texas state-court judges who will be
called upon to enforce S.B. 8’s terms; a putative class of Texas

104a

describes Dickson as “a private individual deputized
to bring S.B. 8 enforcement actions under color of state
law.” Id. at 7 (emphasis added); see also Whole
Woman’s Health, 2021 WL 3910722, at *3 (Sotomayor,
J., dissenting) (arguing that “the Texas Legislature
has deputized the State’s citizens as bounty hunters”).
We therefore conclude that jurisdictional issues in
Dickson’s appeal are “inextricably intertwined” with
the same issues in the State Defendants’ appeal, over
which we indisputably have appellate jurisdiction.
Escobar v. Montee, 895 F.3d 387, 391 (5th Cir. 2018)
(quoting Swint v. Chambers Cty. Comm’n, 514 U.S. 35,
51 (1995)). From this, it follows that the notice of
appeal divested the district court of jurisdiction over
Dickson as well as the State Defendants. See Griggs,
459 U.S. at 58; Weingarten, 661 F.3d at 908.
We are not blind to the “serious questions
regarding the constitutionality of the Texas law at
issue.” Whole Woman’s Health v. Jackson, 2021 WL
3910722, at *1. We are also mindful of the real-world
effects while courts resolve these vexing procedural
questions. But we point out, as did the Supreme
Court, that potential S.B. 8 defendants will be able to
raise defenses before state courts that are bound to
enforce the Constitution. See ibid. (noting the Court’s
“order . . . in no way limits other procedurally proper
challenges to the Texas law, including in Texas state

court clerks who will participate in the enforcement scheme by
. . . accepting S.B. 8 enforcement actions for filing and issuing
service of process; [and] Mark Lee Dickson, a private individual
deputized to bring S.B. 8 enforcement actions under color of state
law, from whom Plaintiffs face a credible threat of enforcement”).

105a

courts”).20 Nonetheless, for a federal court to proceed
to the merits without certainty of jurisdiction “would
threaten to grant unelected judges a general authority
to conduct oversight of decisions of the elected
branches of Government.” California v. Texas, 141 S.
Ct. 2104, 2116 (2021) (citation omitted). In light of
that nonnegotiable principle, we cannot allow
proceedings to go forward while our court considers
whether the federal judiciary has any power to
entertain this novel lawsuit to begin with.
CONCLUSION
IT IS ORDERED that Plaintiffs’ motion to dismiss
Dickson’s appeal is DENIED.
IT IS FURTHER ORDERED that Dickson’s
motion for stay of district court proceedings pending
appeal is GRANTED.
IT IS FURTHER ORDERED that this appeal is
EXPEDITED to the next available oral argument
panel.

20
See also Temporary Restraining Order, Planned
Parenthood of Greater Tex. Surgical Health Servs. et al. v. Texas
Right to Life et al., No. D-1-GN-21-004632 (53rd Dist. Ct., Travis
County, Tex. Sept. 3, 2021) (entering TRO against putative S.B.
8 plaintiffs). We also note that United States recently challenged
S.B. 8 by suing Texas in federal district court. See United States
v. State of Texas, No. 1:21-cv-796 (W.D. Tex. Sept. 9, 2021).

106a

Appendix G
United States Constitution
Amendment XIV
SECTION 1. All persons born or naturalized in
the United States, and subject to the jurisdiction
thereof, are citizens of the United States and of the
state wherein they reside. No state shall make or
enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall
any state deprive any person of life, liberty, or
property, without due process of law; nor deny to any
person within its jurisdiction the equal protection of
the laws.
*

*

*

107a

Appendix H
United States Code
Title 42—The Public Health and Welfare
Chapter 21—Civil Rights
Subchapter I—Generally
§ 1983. Civil action for deprivation of rights.
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any State
or Territory or the District of Columbia, subjects, or
causes to be subjected, any citizen of the United States
or other person within the jurisdiction thereof to the
deprivation of any rights, privileges, or immunities
secured by the Constitution and laws, shall be liable
to the party injured in an action at law, suit in equity,
or other proper proceeding for redress, except that in
any action brought against a judicial officer for an act
or omission taken in such officer’s judicial capacity,
injunctive relief shall not be granted unless a
declaratory decree was violated or declaratory relief
was unavailable. For the purposes of this section, any
Act of Congress applicable exclusively to the District
of Columbia shall be considered to be a statute of the
District of Columbia.

108a

Appendix I
Texas Senate Bill 8
Eighty-Seventh Legislature, 2021 Regular
Session
____________
AN ACT
relating to abortion, including abortions after
detection of an unborn child’s heartbeat; authorizing
a private civil right of action.
BE IT ENACTED BY THE LEGISLATURE OF
THE STATE OF TEXAS:
SECTION 1. This Act shall be known as the Texas
Heartbeat Act.
SECTION 2. The legislature finds that the State
of Texas never repealed, either expressly or by
implication, the state statutes enacted before the
ruling in Roe v. Wade, 410 U.S. 113 (1973), that
prohibit and criminalize abortion unless the mother’s
life is in danger.
SECTION 3. Chapter 171, Health and Safety
Code, is amended by adding Subchapter H to read as
follows:
SUBCHAPTER H. DETECTION OF FETAL
HEARTBEAT
Sec. 171.201. DEFINITIONS. In this subchapter:
(1) “Fetal heartbeat” means cardiac activity or
the steady and repetitive rhythmic contraction of the
fetal heart within the gestational sac.

109a

(2) “Gestational age” means the amount of time
that has elapsed from the first day of a woman’s last
menstrual period.
(3) “Gestational sac” means the structure
comprising the extraembryonic membranes that
envelop the unborn child and that is typically visible
by ultrasound after the fourth week of pregnancy.
(4) “Physician” means an individual licensed to
practice medicine in this state, including a medical
doctor and a doctor of osteopathic medicine.
(5) “Pregnancy” means the human female
reproductive condition that:
(A) begins with fertilization;
(B) occurs when the woman is carrying the
developing human offspring; and
(C) is calculated from the first day of the
woman’s last menstrual period.
(6) “Standard medical practice” means the
degree of skill, care, and diligence that an obstetrician
of ordinary judgment, learning, and skill would
employ in like circumstances.
(7) “Unborn child” means a human fetus or
embryo in any stage of gestation from fertilization
until birth.
Sec. 171.202. LEGISLATIVE FINDINGS. The
legislature finds, according to contemporary medical
research, that:
(1) fetal heartbeat has become a key medical
predictor that an unborn child will reach live birth;
(2) cardiac activity begins at a biologically
identifiable moment in time, normally when the fetal
heart is formed in the gestational sac;

110a

(3) Texas has compelling interests from the
outset of a woman’s pregnancy in protecting the
health of the woman and the life of the unborn child;
and
(4) to make an informed choice about whether
to continue her pregnancy, the pregnant woman has a
compelling interest in knowing the likelihood of her
unborn child surviving to full-term birth based on the
presence of cardiac activity.
Sec. 171.203.
DETERMINATION
OF
PRESENCE OF FETAL HEARTBEAT REQUIRED;
RECORD.
(a) For the purposes of determining the presence of
a fetal heartbeat under this section, “standard medical
practice” includes employing the appropriate means of
detecting the heartbeat based on the estimated
gestational age of the unborn child and the condition
of the woman and her pregnancy.
(b) Except as provided by Section 171.205, a
physician may not knowingly perform or induce an
abortion on a pregnant woman unless the physician
has determined, in accordance with this section,
whether the woman’s unborn child has a detectable
fetal heartbeat.
(c) In making a determination under Subsection
(b), the physician must use a test that is:
(1) consistent with the physician’s good faith
and reasonable understanding of standard medical
practice; and
(2) appropriate for the estimated gestational
age of the unborn child and the condition of the
pregnant woman and her pregnancy.

111a

(d) A physician making a determination under
Subsection (b) shall record in the pregnant woman’s
medical record:
child;

(1) the estimated gestational age of the unborn

(2) the method used to estimate the gestational
age; and
(3) the test used for detecting a fetal heartbeat,
including the date, time, and results of the test.
Sec. 171.204. PROHIBITED ABORTION OF
UNBORN CHILD WITH DETECTABLE FETAL
HEARTBEAT; EFFECT.
(a) Except as provided by Section 171.205, a
physician may not knowingly perform or induce an
abortion on a pregnant woman if the physician
detected a fetal heartbeat for the unborn child as
required by Section 171.203 or failed to perform a test
to detect a fetal heartbeat.
(b) A physician does not violate this section if the
physician performed a test for a fetal heartbeat as
required by Section 171.203 and did not detect a fetal
heartbeat.
(c) This section does not affect:
(1) the provisions of this chapter that restrict or
regulate an abortion by a particular method or during
a particular stage of pregnancy; or
(2) any other provision of state law that
regulates or prohibits abortion.
Sec. 171.205. EXCEPTION
EMERGENCY; RECORDS.

FOR

MEDICAL

112a

(a) Sections 171.203 and 171.204 do not apply if a
physician believes a medical emergency exists that
prevents compliance with this subchapter.
(b) A physician who performs or induces an
abortion under circumstances described by Subsection
(a) shall make written notations in the pregnant
woman’s medical record of:
(1) the physician’s belief that a
emergency necessitated the abortion; and

medical

(2) the medical condition of the pregnant
woman that prevented compliance with this
subchapter.
(c) A physician performing or inducing an abortion
under this section shall maintain in the physician’s
practice records a copy of the notations made under
Subsection (b).
Sec. 171.206.
SUBCHAPTER.

CONSTRUCTION

OF

(a) This subchapter does not create or recognize a
right to abortion before a fetal heartbeat is detected.
(b) This subchapter may not be construed to:
(1) authorize the initiation of a cause of action
against or the prosecution of a woman on whom an
abortion is performed or induced or attempted to be
performed or induced in violation of this subchapter;
(2) wholly or partly repeal, either expressly or
by implication, any other statute that regulates or
prohibits abortion, including Chapter 6– ½ , Title 71,
Revised Statutes; or
(3) restrict a political subdivision from
regulating or prohibiting abortion in a manner that is
at least as stringent as the laws of this state.

113a

Sec. 171.207. LIMITATIONS
ENFORCEMENT.

ON

PUBLIC

(a) Notwithstanding Section 171.005 or any other
law, the requirements of this subchapter shall be
enforced exclusively through the private civil actions
described in Section 171.208. No enforcement of this
subchapter, and no enforcement of Chapters 19 and
22, Penal Code, in response to violations of this
subchapter, may be taken or threatened by this state,
a political subdivision, a district or county attorney, or
an executive or administrative officer or employee of
this state or a political subdivision against any person,
except as provided in Section 171.208.
(b) Subsection (a) may not be construed to:
(1) legalize the conduct prohibited by this
subchapter or by Chapter 6-½ , Title 71, Revised
Statutes;
(2) limit in any way or affect the availability of
a remedy established by Section 171.208; or
(3) limit the enforceability of any other laws
that regulate or prohibit abortion.
Sec. 171.208.
CIVIL
LIABILITY
FOR
VIOLATION
OR
AIDING
OR
ABETTING
VIOLATION.
(a) Any person, other than an officer or employee
of a state or local governmental entity in this state,
may bring a civil action against any person who:
(1) performs or induces an abortion in violation
of this subchapter;
(2) knowingly engages in conduct that aids or
abets the performance or inducement of an abortion,
including paying for or reimbursing the costs of an

114a

abortion through insurance or otherwise, if the
abortion is performed or induced in violation of this
subchapter, regardless of whether the person knew or
should have known that the abortion would be
performed or induced in violation of this subchapter;
or
(3) intends to engage in the conduct described
by Subdivision (1) or (2).
(b) If a claimant prevails in an action brought
under this section, the court shall award:
(1) injunctive relief sufficient to prevent the
defendant from violating this subchapter or engaging
in acts that aid or abet violations of this subchapter;
(2) statutory damages in an amount of not less
than $10,000 for each abortion that the defendant
performed or induced in violation of this subchapter,
and for each abortion performed or induced in
violation of this subchapter that the defendant aided
or abetted; and
(3) costs and attorney’s fees.
(c) Notwithstanding Subsection (b), a court may
not award relief under this section in response to a
violation of Subsection (a)(1) or (2) if the defendant
demonstrates that the defendant previously paid the
full amount of statutory damages under Subsection
(b)(2) in a previous action for that particular abortion
performed or induced in violation of this subchapter,
or for the particular conduct that aided or abetted an
abortion performed or induced in violation of this
subchapter.
(d) Notwithstanding Chapter 16, Civil Practice and
Remedies Code, or any other law, a person may bring

115a

an action under this section not later than the fourth
anniversary of the date the cause of action accrues.
(e) Notwithstanding any other law, the following
are not a defense to an action brought under this
section:
(1) ignorance or mistake of law;
(2) a defendant’s belief that the requirements of
this subchapter are unconstitutional or were
unconstitutional;
(3) a defendant’s reliance on any court decision
that has been overruled on appeal or by a subsequent
court, even if that court decision had not been
overruled when the defendant engaged in conduct
that violates this subchapter;
(4) a defendant’s reliance on any state or federal
court decision that is not binding on the court in which
the action has been brought;
(5) non-mutual issue preclusion or non-mutual
claim preclusion;
(6) the consent of the unborn child’s mother to
the abortion; or
(7) any claim that the enforcement of this
subchapter or the imposition of civil liability against
the defendant will violate the constitutional rights of
third parties, except as provided by Section 171.209.
(f) It is an affirmative defense if:
(1) a person sued under Subsection (a)(2)
reasonably believed, after conducting a reasonable
investigation, that the physician performing or
inducing the abortion had complied or would comply
with this subchapter; or

116a

(2) a person sued under Subsection (a)(3)
reasonably believed, after conducting a reasonable
investigation, that the physician performing or
inducing the abortion will comply with this
subchapter.
(f–1) The defendant has the burden of proving an
affirmative defense under Subsection (f)(1) or (2) by a
preponderance of the evidence.
(g) This section may not be construed to impose
liability on any speech or conduct protected by the
First Amendment of the United States Constitution,
as made applicable to the states through the United
States Supreme Court’s interpretation of the
Fourteenth Amendment of the United States
Constitution, or by Section 8, Article I, Texas
Constitution.
(h) Notwithstanding any other law, this state, a
state official, or a district or county attorney may not
intervene in an action brought under this section. This
subsection does not prohibit a person described by this
subsection from filing an amicus curiae brief in the
action.
(i) Notwithstanding any other law, a court may not
award costs or attorney’s fees under the Texas Rules
of Civil Procedure or any other rule adopted by the
supreme court under Section 22.004, Government
Code, to a defendant in an action brought under this
section.
(j) Notwithstanding any other law, a civil action
under this section may not be brought by a person who
impregnated the abortion patient through an act of
rape, sexual assault, incest, or any other act

117a

prohibited by Sections 22.011, 22.021, or 25.02, Penal
Code.
Sec. 171.209. CIVIL LIABILITY:
BURDEN DEFENSE LIMITATIONS.

UNDUE

(a) A defendant against whom an action is brought
under Section 171.208 does not have standing to
assert the rights of women seeking an abortion as a
defense to liability under that section unless:
(1) the United States Supreme Court holds that
the courts of this state must confer standing on that
defendant to assert the third-party rights of women
seeking an abortion in state court as a matter of
federal constitutional law; or
(2) the defendant has standing to assert the
rights of women seeking an abortion under the tests
for third-party standing established by the United
States Supreme Court.
(b) A defendant in an action brought under Section
171.208 may assert an affirmative defense to liability
under this section if:
(1) the defendant has standing to assert the
third-party rights of a woman or group of women
seeking an abortion in accordance with Subsection (a);
and
(2) the defendant demonstrates that the relief
sought by the claimant will impose an undue burden
on that woman or that group of women seeking an
abortion.
(c) A court may not find an undue burden under
Subsection (b) unless the defendant introduces
evidence proving that:

118a

(1) an award of relief will prevent a woman or a
group of women from obtaining an abortion; or
(2) an award of relief will place a substantial
obstacle in the path of a woman or a group of women
who are seeking an abortion.
(d) A defendant may not establish an undue
burden under this section by:
(1) merely demonstrating that an award of
relief will prevent women from obtaining support or
assistance, financial or otherwise, from others in their
effort to obtain an abortion; or
(2) arguing or attempting to demonstrate that
an award of relief against other defendants or other
potential defendants will impose an undue burden on
women seeking an abortion.
(e) The affirmative defense under Subsection (b) is
not available if the United States Supreme Court
overrules Roe v. Wade, 410 U.S. 113 (1973) or Planned
Parenthood v. Casey, 505 U.S. 833 (1992), regardless
of whether the conduct on which the cause of action is
based under Section 171.208 occurred before the
Supreme Court overruled either of those decisions.
(f) Nothing in this section shall in any way limit or
preclude a defendant from asserting the defendant’s
personal constitutional rights as a defense to liability
under Section 171.208, and a court may not award
relief under Section 171.208 if the conduct for which
the defendant has been sued was an exercise of state
or federal constitutional rights that personally belong
to the defendant.
Sec. 171.210. CIVIL LIABILITY: VENUE.
(a) Notwithstanding any other law, including
Section 15.002, Civil Practice and Remedies Code, a

119a

civil action brought under Section 171.208 shall be
brought in:
(1) the county in which all or a substantial part
of the events or omissions giving rise to the claim
occurred;
(2) the county of residence for any one of the
natural person defendants at the time the cause of
action accrued;
(3) the county of the principal office in this state
of any one of the defendants that is not a natural
person; or
(4) the county of residence for the claimant if
the claimant is a natural person residing in this state.
(b) If a civil action
171.208 in any one of
Subsection (a), the action
different venue without
parties.

is brought under Section
the venues described by
may not be transferred to a
the written consent of all

Sec. 171.211. SOVEREIGN, GOVERNMENTAL,
AND OFFICIAL IMMUNITY PRESERVED.
(a) This section prevails over any conflicting law,
including:
and

(1) the Uniform Declaratory Judgments Act;
(2) Chapter 37, Civil Practice and Remedies

Code.
(b) This state has sovereign immunity, a political
subdivision has governmental immunity, and each
officer and employee of this state or a political
subdivision has official immunity in any action, claim,
or counterclaim or any type of legal or equitable action
that challenges the validity of any provision or

120a

application of this chapter, on constitutional grounds
or otherwise.
(c) A provision of state law may not be construed to
waive or abrogate an immunity described by
Subsection (b) unless it expressly waives immunity
under this section.
Sec. 171.212. SEVERABILITY.
(a) Mindful of Leavitt v. Jane L., 518 U.S. 137
(1996), in which in the context of determining the
severability of a state statute regulating abortion the
United States Supreme Court held that an explicit
statement of legislative intent is controlling, it is the
intent of the legislature that every provision, section,
subsection, sentence, clause, phrase, or word in this
chapter, and every application of the provisions in this
chapter, are severable from each other.
(b) If any application of any provision in this
chapter to any person, group of persons, or
circumstances is found by a court to be invalid or
unconstitutional, the remaining applications of that
provision to all other persons and circumstances shall
be severed and may not be affected. All
constitutionally valid applications of this chapter
shall be severed from any applications that a court
finds to be invalid, leaving the valid applications in
force, because it is the legislature’s intent and priority
that the valid applications be allowed to stand alone.
Even if a reviewing court finds a provision of this
chapter to impose an undue burden in a large or
substantial fraction of relevant cases, the applications
that do not present an undue burden shall be severed
from the remaining applications and shall remain in
force, and shall be treated as if the legislature had
enacted a statute limited to the persons, group of

121a

persons, or circumstances for which the statute’s
application does not present an undue burden.
(b–1) If any court declares or finds a provision of
this chapter facially unconstitutional, when discrete
applications of that provision can be enforced against
a person, group of persons, or circumstances without
violating the United States Constitution and Texas
Constitution, those applications shall be severed from
all remaining applications of the provision, and the
provision shall be interpreted as if the legislature had
enacted a provision limited to the persons, group of
persons, or circumstances for which the provision’s
application will not violate the United States
Constitution and Texas Constitution.
(c) The legislature further declares that it would
have enacted this chapter, and each provision, section,
subsection, sentence, clause, phrase, or word, and all
constitutional
applications
of
this
chapter,
irrespective of the fact that any provision, section,
subsection, sentence, clause, phrase, or word, or
applications of this chapter, were to be declared
unconstitutional or to represent an undue burden.
(d) If any provision of this chapter is found by any
court to be unconstitutionally vague, then the
applications of that provision that do not present
constitutional vagueness problems shall be severed
and remain in force.
(e) No court may decline to enforce the severability
requirements of Subsections (a), (b), (b–1), (c), and (d)
on the ground that severance would rewrite the
statute or involve the court in legislative or
lawmaking activity. A court that declines to enforce or
enjoins a state official from enforcing a statutory
provision does not rewrite a statute, as the statute

122a

continues to contain the same words as before the
court’s decision. A judicial injunction or declaration of
unconstitutionality:
(1) is nothing more than an edict prohibiting
enforcement that may subsequently be vacated by a
later court if that court has a different understanding
of the requirements of the Texas Constitution or
United States Constitution;
(2) is not a formal amendment of the language
in a statute; and
(3) no more rewrites a statute than a decision
by the executive not to enforce a duly enacted statute
in a limited and defined set of circumstances.
SECTION 4. Chapter 30, Civil Practice and
Remedies Code, is amended by adding Section 30.022
to read as follows:
Sec. 30.022. AWARD OF ATTORNEY’S FEES IN
ACTIONS CHALLENGING ABORTION LAWS.
(a) Notwithstanding any other law, any person,
including an entity, attorney, or law firm, who seeks
declaratory or injunctive relief to prevent this state, a
political subdivision, any governmental entity or
public official in this state, or any person in this state
from enforcing any statute, ordinance, rule,
regulation, or any other type of law that regulates or
restricts abortion or that limits taxpayer funding for
individuals or entities that perform or promote
abortions, in any state or federal court, or that
represents any litigant seeking such relief in any state
or federal court, is jointly and severally liable to pay
the costs and attorney’s fees of the prevailing party.

123a

(b) For purposes of this section, a party is
considered a prevailing party if a state or federal
court:
(1) dismisses any claim or cause of action
brought against the party that seeks the declaratory
or injunctive relief described by Subsection (a),
regardless of the reason for the dismissal; or
(2) enters judgment in the party’s favor on any
such claim or cause of action.
(c) Regardless of whether a prevailing party sought
to recover costs or attorney’s fees in the underlying
action, a prevailing party under this section may bring
a civil action to recover costs and attorney’s fees
against a person, including an entity, attorney, or law
firm, that sought declaratory or injunctive relief
described by Subsection (a) not later than the third
anniversary of the date on which, as applicable:
(1) the dismissal or judgment described by
Subsection (b) becomes final on the conclusion of
appellate review; or
(2) the time for seeking appellate review
expires.
(d) It is not a defense to an action brought under
Subsection (c) that:
(1) a prevailing party under this section failed
to seek recovery of costs or attorney’s fees in the
underlying action;
(2) the court in the underlying action declined
to recognize or enforce the requirements of this
section; or
any

(3) the court in the underlying action held that
provisions of this section are invalid,

124a

unconstitutional, or preempted by federal law,
notwithstanding the doctrines of issue or claim
preclusion.
SECTION 5. Subchapter C, Chapter 311,
Government Code, is amended by adding Section
311.036 to read as follows:
Sec. 311.036. CONSTRUCTION OF ABORTION
STATUTES.
(a) A statute that regulates or prohibits abortion
may not be construed to repeal any other statute that
regulates or prohibits abortion, either wholly or
partly, unless the repealing statute explicitly states
that it is repealing the other statute.
(b) A statute may not be construed to restrict a
political subdivision from regulating or prohibiting
abortion in a manner that is at least as stringent as
the laws of this state unless the statute explicitly
states that political subdivisions are prohibited from
regulating or prohibiting abortion in the manner
described by the statute.
(c) Every statute that regulates or prohibits
abortion is severable in each of its applications to
every person and circumstance. If any statute that
regulates or prohibits abortion is found by any court
to be unconstitutional, either on its face or as applied,
then all applications of that statute that do not violate
the United States Constitution and Texas
Constitution
shall
be
severed
from
the
unconstitutional applications and shall remain
enforceable, notwithstanding any other law, and the
statute shall be interpreted as if containing language
limiting the statute’s application to the persons, group
of persons, or circumstances for which the statute’s

125a

application will not violate the United States
Constitution and Texas Constitution.
SECTION 6. Section 171.005, Health and Safety
Code, is amended to read as follows:
Sec. 171.005. COMMISSION [DEPARTMENT]
TO ENFORCE; EXCEPTION. The commission
[department] shall enforce this chapter except for
Subchapter H, which shall be enforced exclusively
through the private civil enforcement actions
described by Section 171.208 and may not be enforced
by the commission.
SECTION 7. Subchapter A, Chapter 171, Health
and Safety Code, is amended by adding Section
171.008 to read as follows:
Sec. 171.008. REQUIRED DOCUMENTATION.
(a) If an abortion is performed or induced on a
pregnant woman because of a medical emergency, the
physician who performs or induces the abortion shall
execute a written document that certifies the abortion
is necessary due to a medical emergency and specifies
the woman’s medical condition requiring the abortion.
(b) A physician shall:
(1) place the document described by Subsection
(a) in the pregnant woman’s medical record; and
(2) maintain a copy of the document described
by Subsection (a) in the physician’s practice records.
(c) A physician who performs or induces an
abortion on a pregnant woman shall:
(1) if the abortion is performed or induced to
preserve the health of the pregnant woman, execute a
written document that:

126a

(A) specifies the medical condition the
abortion is asserted to address; and
(B) provides the medical rationale for the
physician’s conclusion that the abortion is necessary
to address the medical condition; or
(2) for an abortion other than an abortion
described by Subdivision (1), specify in a written
document that maternal health is not a purpose of the
abortion.
(d) The physician shall maintain a copy of a
document described by Subsection (c) in the
physician’s practice records.
SECTION 8. Section 171.012(a), Health and
Safety Code, is amended to read as follows:
(a) Consent to an abortion is voluntary and
informed only if:
(1) the physician who is to perform or induce the
abortion informs the pregnant woman on whom the
abortion is to be performed or induced of:
(A) the physician’s name;
(B) the particular medical risks associated
with the particular abortion procedure to be employed,
including, when medically accurate:
(i) the risks of infection and hemorrhage;
(ii) the potential danger to a subsequent
pregnancy and of infertility; and
(iii) the possibility of increased risk of
breast cancer following an induced abortion and the
natural protective effect of a completed pregnancy in
avoiding breast cancer;

127a

(C) the probable gestational age of the
unborn child at the time the abortion is to be
performed or induced; and
(D) the medical risks associated with
carrying the child to term;
(2) the physician who is to perform or induce the
abortion or the physician’s agent informs the pregnant
woman that:
(A) medical assistance benefits may be
available for prenatal care, childbirth, and neonatal
care;
(B) the father is liable for assistance in the
support of the child without regard to whether the
father has offered to pay for the abortion; and
(C) public and private agencies provide
pregnancy prevention counseling and medical
referrals for obtaining pregnancy prevention
medications or devices, including emergency
contraception for victims of rape or incest;
(3) the physician who is to perform or induce the
abortion or the physician’s agent:
(A) provides the pregnant woman with the
printed materials described by Section 171.014; and
(B) informs the pregnant woman that those
materials:
(i) have been provided by the commission
[Department of State Health Services];
(ii) are accessible on an Internet website
sponsored by the commission [department];
(iii) describe the unborn child and list
agencies that offer alternatives to abortion; and

128a

(iv) include a list of agencies that offer
sonogram services at no cost to the pregnant woman;
(4) before any sedative or anesthesia is
administered to the pregnant woman and at least 24
hours before the abortion or at least two hours before
the abortion if the pregnant woman waives this
requirement by certifying that she currently lives 100
miles or more from the nearest abortion provider that
is a facility licensed under Chapter 245 or a facility
that performs more than 50 abortions in any 12–
month period:
(A) the physician who is to perform or induce
the abortion or an agent of the physician who is also a
sonographer certified by a national registry of medical
sonographers performs a sonogram on the pregnant
woman on whom the abortion is to be performed or
induced;
(B) the physician who is to perform or induce
the abortion displays the sonogram images in a
quality consistent with current medical practice in a
manner that the pregnant woman may view them;
(C) the physician who is to perform or induce
the abortion provides, in a manner understandable to
a layperson, a verbal explanation of the results of the
sonogram images, including a medical description of
the dimensions of the embryo or fetus, the presence of
cardiac activity, and the presence of external members
and internal organs; and
(D) the physician who is to perform or induce
the abortion or an agent of the physician who is also a
sonographer certified by a national registry of medical
sonographers makes audible the heart auscultation
for the pregnant woman to hear, if present, in a

129a

quality consistent with current medical practice and
provides, in a manner understandable to a layperson,
a simultaneous verbal explanation of the heart
auscultation;
(5) before receiving a sonogram under
Subdivision (4)(A) and before the abortion is
performed or induced and before any sedative or
anesthesia is administered, the pregnant woman
completes and certifies with her signature an election
form that states as follows:
“ABORTION AND SONOGRAM ELECTION
(1) THE INFORMATION AND PRINTED
MATERIALS
DESCRIBED
BY
SECTIONS
171.012(a)(1)–(3), TEXAS HEALTH AND SAFETY
CODE, HAVE BEEN PROVIDED AND EXPLAINED
TO ME.
(2) I UNDERSTAND THE NATURE AND
CONSEQUENCES OF AN ABORTION.
(3) TEXAS LAW REQUIRES THAT I
RECEIVE A SONOGRAM PRIOR TO RECEIVING
AN ABORTION.
(4) I UNDERSTAND THAT I HAVE THE
OPTION TO VIEW THE SONOGRAM IMAGES.
(5) I UNDERSTAND THAT I HAVE THE
OPTION TO HEAR THE HEARTBEAT.
(6) I UNDERSTAND THAT I AM REQUIRED
BY LAW TO HEAR AN EXPLANATION OF THE
SONOGRAM IMAGES UNLESS I CERTIFY IN
WRITING TO ONE OF THE FOLLOWING:
_____ I AM PREGNANT AS A RESULT OF A
SEXUAL ASSAULT, INCEST, OR OTHER
VIOLATION OF THE TEXAS PENAL CODE THAT

130a

HAS BEEN REPORTED TO LAW ENFORCEMENT
AUTHORITIES OR THAT HAS NOT BEEN
REPORTED BECAUSE I REASONABLY BELIEVE
THAT DOING SO WOULD PUT ME AT RISK OF
RETALIATION RESULTING IN SERIOUS BODILY
INJURY.
______ I AM A MINOR AND OBTAINING AN
ABORTION IN ACCORDANCE WITH JUDICIAL
BYPASS PROCEDURES UNDER CHAPTER 33,
TEXAS FAMILY CODE.
______ MY UNBORN CHILD [FETUS] HAS
AN IRREVERSIBLE MEDICAL CONDITION OR
ABNORMALITY, AS IDENTIFIED BY RELIABLE
DIAGNOSTIC PROCEDURES AND DOCUMENTED
IN MY MEDICAL FILE.
(7) I AM MAKING THIS ELECTION OF MY
OWN FREE WILL AND WITHOUT COERCION.
(8) FOR A WOMAN WHO LIVES 100 MILES
OR MORE FROM THE NEAREST ABORTION
PROVIDER THAT IS A FACILITY LICENSED
UNDER CHAPTER 245, TEXAS HEALTH AND
SAFETY CODE, OR A FACILITY THAT PERFORMS
MORE THAN 50 ABORTIONS IN ANY 12–MONTH
PERIOD ONLY:
I CERTIFY THAT, BECAUSE I CURRENTLY
LIVE 100 MILES OR MORE FROM THE NEAREST
ABORTION PROVIDER THAT IS A FACILITY
LICENSED UNDER CHAPTER 245 OR A FACILITY
THAT PERFORMS MORE THAN 50 ABORTIONS IN
ANY 12–MONTH PERIOD, I WAIVE THE
REQUIREMENT TO WAIT 24 HOURS AFTER THE
SONOGRAM
IS
PERFORMED
BEFORE
RECEIVING THE ABORTION PROCEDURE. MY

131a

PLACE
OF
IS:_______________________________.

RESIDENCE

_______________________
_______________________
SIGNATURE

DATE”;

(6) before the abortion is performed or induced,
the physician who is to perform or induce the abortion
receives a copy of the signed, written certification
required by Subdivision (5); and
(7) the pregnant woman is provided the name
of each person who provides or explains the
information required under this subsection.
SECTION 9. Section 245.011(c), Health and
Safety Code, is amended to read as follows:
(c) The report must include:
(1) whether the abortion facility at which the
abortion is performed is licensed under this chapter;
(2) the patient’s year of birth, race, marital
status, and state and county of residence;
(3) the type of abortion procedure;
(4) the date the abortion was performed;
(5) whether the patient survived the abortion,
and if the patient did not survive, the cause of death;
(6) the probable post-fertilization age of the
unborn child based on the best medical judgment of
the attending physician at the time of the procedure;
(7) the date, if known, of the patient’s last
menstrual cycle;
(8) the number of previous live births of the
patient; [and]

132a

(9) the number of previous induced abortions of
the patient;
(10) whether the abortion was performed or
induced because of a medical emergency and any
medical condition of the pregnant woman that
required the abortion; and
(11) the information required under Sections
171.008(a) and (c).
SECTION 10. Every provision in this Act and
every application of the provision in this Act are
severable from each other. If any provision or
application of any provision in this Act to any person,
group of persons, or circumstance is held by a court to
be invalid, the invalidity does not affect the other
provisions or applications of this Act.
SECTION 11. The change in law made by this Act
applies only to an abortion performed or induced on or
after the effective date of this Act.
SECTION 12. This Act takes effect September 1,
2021.

